<html>
<title> - STRAINS ON THE EUROPEAN UNION: IMPLICATIONS FOR AMERICAN FOREIGN POLICY</title>
<body><pre>[Senate Hearing 114-794]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 114-794

  INSERT TITLE HERESTRAINS ON THE EUROPEAN UNION: IMPLICATIONS FOR 
                        AMERICAN FOREIGN POLICY

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION



                               __________

                             FEBRUARY 3, 2016
                               __________



       Printed for the use of the Committee on Foreign Relations





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                   Available via the World Wide Web:
                         http://www.govinfo.gov





		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
31-168 PDF                WASHINGTON : 2018                 














                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  















                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee....................     1


Cardin, Hon. Benjamin L., U.S. Senator from Maryland.............     2


Wilson, Damon, Executive Vice President, The Atlantic Council, 
  Washington, DC.................................................     4

    Prepared statement...........................................     7


Smith, Julianne, Senior Fellow and Director of the Strategy and 
  Statecraft Program, Center for a New American Security, 
  Washington, DC.................................................     9

    Prepared statement...........................................    11

              Additional Material Submitted for the Record

Responses to Additional Questions Submitted to Mr. Wilson and Ms. 
  Smith by Senator Shaheen.......................................    39




                             (iii)        

  

 
                        STRAINS ON THE EUROPEAN
                        UNION: IMPLICATIONS FOR
                        AMERICAN FOREIGN POLICY

                              ----------                              


                      WEDNESDAY, FEBRUARY 3, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Gardner, 
Cardin, Menendez, Shaheen, Murphy, and Kaine.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    We appreciate our witnesses being here. We have been paying 
a lot of attention to what is happening in Europe. I was at the 
World Economic Forum, I guess a week and a half ago, and they 
are paying a lot of attention to us. I think the presidential 
race here, and some of the comments that have been made, have 
caused people in Europe to certainly focus, right now, on the 
presidential race that we have underway, and wondering, if you 
will, where U.S. foreign policy is going to go. At the same 
time, obviously, because of the historical ties that we have, 
the long relationship, without a stable Europe, that certainly 
affects U.S. foreign policy in big way. So, we thank you very 
much for being here.
    There are tremendous challenges. I look at the challenges 
we have in our own country--which are large--and yet, I look at 
the European Union and the challenges that they are facing 
right now, and, in many ways, the problems that we have pale in 
comparison to the ones that they have. The $87 billion bailout, 
if you will, towards Greece, and yet they are still having 
tremendous economic, political and fiscal issues to deal with 
as they move ahead, the U.K. referendum that may--it looks like 
it will be taking place, and, you know, Prime Minister Cameron 
dealing with those issues, and what they--what that may mean 
for Scottish independence, should that occur; the Paris 
attacks, and just the concerns of--that--in France, but also 
many countries there, relative to terrorism and countering 
that; the refugees and migrants issue that is affecting 
especially Germany, but so many of the member countries, and, 
you know, challenging how they uniformly deal with that; and 
then, last and certainly not least, just a resurgent Russia and 
the pressures that that is putting on Europe, certainly the 
periphia; and then how they all contend with that. So, 
tremendous issues.
    We thank our witnesses for being here today, and we 
appreciate the committee's willingness to focus on this issue. 
These problems are putting tremendous pressure on the economic, 
monetary, and political unions in Europe. And they matter to 
the U.S. They matter to us, relative to our markets, relative 
to our manufacturers, and certainly relative to just the allies 
that we depend upon mutually, relative to just defense and 
national security and those kinds of things.
    So, again, we thank you for being here.
    And with that, I will turn it over to our distinguished and 
great Ranking Member, Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Mr. Chairman, first of all, thank you 
for bringing this hearing to our committee. And I think 
everyone should understand that yesterday we had and 
opportunity, in a closed setting, to meet with Secretary Nuland 
to get the administration's honest assessment of some of these 
challenges in Europe. And I think that was extremely helpful in 
preparation for today's hearing. So, Mr. Chairman, thank you 
for making those arrangements.
    And I want to ask consent that an article that I authored 
in The Guardian be made part of our record--that way, I can 
shorten my opening statement--because I think it expresses many 
of the points that you also raised.
    [The information referred to follows:]

    ``The United States Must Support the EU in These Trying Times,''
             by Ben Cardin, The Guardian, February 3, 2016

    As the European Union confronts unprecedented challenges which 
collectively threaten the future of the European project, the U.S. has 
an obligation to stand with our friends there in support of the 
principles that we all share: democracy and the rule of law, respect 
for human rights, economic prosperity and peace and security. The 
pressures on the union are considerable, but there are measures that 
the U.S. can take to help.
    The heated debate within the union on how to deal with the refugee 
and migrant crisis has called into question the ability of Brussels to 
enforce commitments by its member states on borders, Schengen visa-free 
travel and quotas associated with resettlement. The U.S. should 
continue our robust support for the U.N. High Commissioner for 
Refugees, the International Organization for Migration and several 
outstanding NGOs which are working directly with refugees and migrants 
across Europe.
    Governments across the EU are also contending with the real threat 
of domestic terrorism and foreign fighters. Horrific attacks have 
galvanized European leaders to action, but significant challenges 
remain as the necessity for enhanced counterterrorism and intelligence 
measures interact with real concerns regarding privacy. The U.S. should 
continue to work with Europe on strengthening border controls while 
maintaining the vitality of the Schengen zone. This means sharing of 
intelligence and preventing terrorist attacks before they happen.
    Another alarming trend that has emerged in several countries across 
the EU is a rising nationalism exacerbated by the migrant crisis. In 
some countries, governments have embraced a brand of ``illiberal 
democracy'' which calls into question the very democratic values of the 
EU. It is worrying that we have seen an erosion of these principles in 
some corners of the union. We should make clear our support for the 
EU's democratic principles and our opposition to the chorus of 
illiberal voices in Europe. The U.S. should reenergize ties and provide 
support to democracy and human rights civil society organizations 
across the continent, especially in central and eastern Europe, where 
strong civil society connections have atrophied as attention shifted 
elsewhere.
    Russia, too, continues to put inordinate pressure on the EU. 
Ukraine is the clearest example: its aspirations for EU membership were 
met with the illegal Russian occupation of Crimea and subsequent 
invasion of eastern Ukraine. The U.S. should continue to work closely 
with the EU and member states to ensure that the Minsk II deal is fully 
implemented.
    Russia has also sought to erode support for EU institutions by 
funding anti-EU political parties, think tanks, NGOs and media voices, 
using the very strengths of Europe's democratic societies--free press, 
civil society and open debate--against it. The EU and U.S. should work 
together on affirmative messaging that clearly and unequivocally states 
our shared values.
    All of these issues matter greatly to the United States. Our 
partnership with the EU has afforded us the possibility of addressing 
some of the most challenging issues--this partnership has made us safer 
and stronger. We also draw great economic benefit from a stable EU--the 
union is our largest trading partner and our economies benefit citizens 
on both sides of the Atlantic. But this partnership only works if the 
EU's institutions are vibrant and able to respond to the challenges 
before it.
    In 2012, the Nobel Peace prize was awarded in recognition of the 
EU's central role in providing stability in Europe. This sentiment 
holds true today even as pressure on the union grows. Across the ocean 
in the U.S., we should stand in solidarity with our friends in Europe 
and the democratic principles they embrace. Never before has the EU 
been so challenged or our alliance so valuable. We must bolster our 
ties and renew our commitment to a robust transatlantic relationship.


    Senator Cardin. And we both agree that we need a unified, 
stable, strong EU--that is important to the United States--an 
EU that can speak out and take action on our common values of 
democracy, rule of law, respect for human rights, economic 
prosperity, peace and security. And these are extremely 
challenging times.
    I think, first, on the challenge to Europe is how they are 
dealing with the refugee and migrant issue. In 2015, an 
estimated 1 million refugees came out of Syria into Europe. 
That is a huge number that they are dealing with on refugees 
and migrants. And we are seeing some activities that are 
inconsistent with the traditions that we all support, where we 
see expulsion of asylum-seekers in Finland and Sweden; where we 
see Turkey being declared to be a safe third country so that 
they can ferry back from Greece to Turkey, those who have 
risked their lives to get out of Turkey into Greece; and where 
refugees' assets are being seized in Denmark; to the EU working 
out a financial arrangement with Turkey in an effort to try to 
keep the refugees in Turkey; the challenge to the free and open 
borders between the countries of the EU; the failure to share 
information in a timely way because of other considerations. 
All that adds to the challenges we have with the EU today on 
the refugee crisis. And then the threat of domestic terrorism 
and foreign fighters that the Chairman mentioned. That is a 
real risk in Europe today; nationalist trends--questioning the 
democratic values, including some of our NATO allies in actions 
that we have seen in their government.
    And, of course, the greatest challenge, looking forward, is 
Russia and Russia's influence as we see the challenge in 
Ukraine today. There is no progress being made on Crimea 
annexation. And Minsk II has been stuck for a long time, and 
the prospects of implementing that in the way it was intended 
is unclear. And, of course, we could also talk about Georgia 
and Moldova as to the frozen conflicts with Russia.
    So, Russia has also sought to erode support for EU 
institutions by funding anti-EU political parties, think tanks, 
NGOs, and media voices. Russia is using the very strengths of 
Europe's democratic society--free press, civil society, and 
open debate--against it. The answer is not counterpropaganda, 
but the EU and U.S. should work together to clearly and 
unequivocally state our shared values.
    I also want to acknowledge the concern about the U.K. 
remaining in the EU. And that is, certainly, of great interest 
to the United States. Also of concern are the financial 
struggles of the EU, particularly as we saw with Greece still 
not being totally resolved.
    So, Mr. Chairman, we have a lot of issues in regards to 
carrying out a strong, stable Europe that has shared our 
values.
    I do want to acknowledge the two witnesses and make an 
apology. I need to leave for a few moments, but I will be 
returning shortly.
    I know, Mr. Wilson, your dad is here. We very much 
appreciate you bringing your father with you. I understand he 
is a frequent visitor to our committee, so he just happened to 
be walking past the same committee that you are appearing in.
    But, I thank both of our witnesses for being here today.
    The Chairman. Thank you.
    With that, our first witness is Mr. Damon Wilson, as has 
been mentioned, Executive Vice President to--at The Atlantic 
Council, where he specializes in Eurozone, NATO, and 
Transatlantic Relations. Mr. Wilson is a former Special 
Assistant to the President and Senior Director for European 
Affairs at the National Security Council. And Mr. Wilson, 
sitting behind him, if he needs any correct, please interject 
as he is making his presentation. [Laughter.]
    The Chairman. Our second witness today is Ms. Julianne 
Smith, the Director of Strategy and Statecraft Program at the 
Center for a New American Security. Ms. Smith previously served 
as Deputy National Security Advisor to the Vice President of 
the United States.
    We welcome you both. If you would present in the order I 
just introduced you, I would appreciate it. I think you know 
your written testimony, without objection, will be entered into 
the record. If you could summarize in about 5 minutes, that 
would be appreciated, and then we will be glad to ask 
questions.
    So, with that, Mr. Wilson. Thank you.

   STATEMENT OF DAMON WILSON, EXECUTIVE VICE PRESIDENT, THE 
                ATLANTIC COUNCIL, WASHINGTON, DC

    Mr. Wilson. Thank you very much, Chairman Corker. And thank 
you, Senator Murphy, for being here.
    I also want to just start by saying I very much agree with 
the sentiments in your opening remarks that you and Senator 
Cardin made. Europe is in crisis. The continent faces a--
actually, a confluence of crises that is far more profound than 
most realize. And, as a result, the United States risks losing 
its most important strategic asset in foreign affairs, which is 
a vibrant Europe as a partner of first resort.
    I think right now is a time for the United States to shift 
from being an observer to an actor and return to the historic 
posture that we have played in helping to foster and forge 
European unity, not for the sake of some vision just of a 
united Europe, but so that we have a European partner that is 
better equipped to work with us on the enormous global 
challenges.
    It is clear that today Europe is facing historic tests. To 
its east, Russia seeks to roll back the gains of the post-Cold 
War period, aiming to rewrite the rules fundamental to Europe's 
security, undermine Europe's unity, its core values, and foster 
instability on its periphery. And, to the south, the erosion of 
state authority and borders in the Middle East threatens Europe 
with mass refugee flows and Islamic terrorism.
    But, the greatest challenge to Europe is not external, it 
is internal. There is a crisis in confidence, a loss of a sense 
of strategic purposes, if you will, that puts at risk the so-
called European Project, this idea that you could turn former 
adversaries into an integrated union. This greater integration 
has failed to restore growth and foster innovation, create 
jobs. European publics and leaders are questioning the 
fundamental political bargain that underpins the EU.
    Essentially, we have centrifugal forces pulling the 
European Union apart, and we see EU leaders stumbling from 
crisis to crisis. They reach short-term agreements, but they 
are essentially failing to address the long-term challenges. 
And, as a result, now we see the Union, itself, in question. As 
you mentioned, the U.K. may turn its back on the EU this year, 
depriving us of a critical voice in shaping the future of 
Europe. Such decisions may prompt Scotland to dissolve the 
United Kingdom. And these could fuel more separatist efforts 
across the continents, opening the prospects of other states 
leaving the EU. And, at a minimum, we know that the Brexit 
debate will occupy Europe's political attention span for the 
year.
    So, we see these challenges--a stagnating France unable to 
rally Europe around counterterrorism policy, a German style of 
leadership that just might be too cautious in this 
environment--we see populism and nationalism rearing their ugly 
heads in central and eastern Europe, and our Mediterranean 
allies mired in low growth.
    There is a historic transition taking place whose outcome 
is uncertain and implications little understood, but the stakes 
for us are enormous, because the EU is the largest economy, 
foreign assistance donor, carries enormous political weight, 
and it is the most interoperable and deployable of the 
militaries among our partners. So, Europe's internal challenges 
have now become, I think, a critical strategic problem for us. 
And we risk losing Europe, lost in the politics of the 
parochial, as our most militarily capable, political willing, 
and financially able, like-minded partner.
    But, I think this actually presents us with an opportunity 
to reengage. After all, it was the two devastating world wars 
that taught the Americans the costs of remaining aloof. So, I 
think our goal today should be a little bit bigger than what we 
are thinking about. How should we help restore a sense of the 
Atlantic community's confidence, competitiveness, capacity, and 
will to act at home and abroad? And I think there is a path to 
do this.
    And first, it is about how we gain our role in fostering 
European unity. The European Project was an American project. 
We do not simply return to the past Cold War-era tactics. The 
EU is far more complex and savvy. But, it does begin with us 
helping to be clear on things like the United Kingdom--making 
it clear the United Kingdom without a voice in Europe is a 
United Kingdom that risks losing its relevance. In turn, a 
Brussels that does not reform in response to Prime Minister 
Cameron's demands risks itself losing the legitimacy in a way 
that is not going to be--overcome some of the biggest obstacles 
it faces. And, for our own policy, while we have problems, we 
need to engage, not isolate, certain leaders, trying to anchor 
them with a political and moral tether while making it clear 
that there is no space for illiberal democracies within our 
community.
    It is clear, to get this right, you cannot do it without 
growth. Growth is a strategic imperative. This is why I think 
our objective of an ambitious trade and investment partnership 
is so critical to help unleash innovation and entrepreneurship, 
linked with what we are trying to do on the Transpacific 
Partnership. And it is why the current debate on digital and 
privacy matters, because it remains a question whether this 
will be a driver for growth in Europe or whether Europe will 
opt out.
    Third, we have to take bold steps to bolster the NATO 
alliance, and ensure it is strong and central to our national 
security policy. Yesterday, Secretaries Ash--Secretary Ash's 
announcement went a long way in this direction. This means 
adopting deterrent policies, including significant combat 
forces in NATO's eastern flank, building the deterrent 
capability of our eastern allies and partners, and working to 
push Germany to take on a greater defense role. It is clear 
that we need a stronger European pillar within the alliance, 
but we will not achieve that by ceding leadership of the 
alliance or passing the baton to the EU.
    And fourth, the United States has to lead Europe in forging 
a strategy for Europe's east. Europe faces a fundamental 
security challenge from Russia. The EU is ill-equipped to 
handle it alone. It has held together remarkably well on 
sanctions. But, we do not have a comprehensive strategy that is 
going to avoid allowing Russia to hold Europe's neighbors in 
the east hostage with frozen conflicts and occupied 
territories. At the same time, we need to be working more 
decisively to eliminate avenues for Moscow to influence our 
allies through corruption or energy.
    And finally is Europe's southern challenge, which is 
equally our own. We have been a central actor in these crises. 
We carry some responsibility to work with Europe to respond. 
That means, obviously, a more decisive approach to the crises 
themselves, a military commitment sustained in Afghanistan, and 
also ways to look at how we can rally Europe on 
counterterrorism, intelligence-sharing, and a capability-
building initiative with partners in North Africa and the 
Middle East. There is also a space for more moral leadership 
from the United States by how we welcome refugees from the 
region, and how we protect programs like the Visa Waiver 
Program, which actually are an engine--economic engine for us.
    To close, it is only the United States right now in this 
debate that can really give--rally the transatlantic community 
towards a greater purpose. We either come together to shape 
this future, or we can cede this role to less benevolent 
actors. It was Europe and North America that helped build the 
liberal international order that brought so much prosperity and 
security to so many people, but we see inward-looking trends on 
both sides of the Atlantic that, if left unchallenged, can 
undermine this. I think there is time and a specific recipe for 
a new, savvy era of U.S. leadership to help adapt and 
revitalize this order. It is clear that if we face these 
challenges with a Europe in disarray in the coming years, it is 
going to be far more difficult. But, we can play that 
galvanizing role. It is kind of like in politics today. You 
think you need to begin by rallying our base. And Europe is our 
base.
    Thank you.
    [Damon Wilson's Prepared Statement follows:]


                 Prepared Statement of Damon M. Wilson

    Chairman Corker, Ranking Member Cardin, members of the committee, 
Europe is in crisis.
    In fact, Europe faces a confluence of crises far more profound than 
most Americans realize. As a result, the United States risks losing its 
most important strategic asset in global affairs: a vibrant Europe as a 
partner of first resort. It's time for the United States to shift from 
observer to actor, and return to our historic posture of helping to 
forge European unity--not for the sake of some vision of a united 
Europe, but so that we have a European partner better equipped to work 
with us on enormous global challenges.
    Today, Europe faces historic tests from its east and its south. To 
the east, Russia seeks to roll back the gains of the post-Cold War 
period, aiming to rewrite the rules fundamental to Europe's security, 
undermine Europe's unity, challenge its core values, and foster 
instability on its periphery. To the south, the erosion of state 
authority and borders in the Middle East threatens Europe with mass 
refugee flows and Islamic terrorism.
    And yet the greatest challenge to Europe is not external, but 
internal. There is a crisis in confidence and a loss of strategic 
purpose that puts at risk the so-called European project--turning 
former adversaries into an integrated European Union. Greater 
integration has failed to restore growth, foster innovation, and create 
jobs. European publics and leaders question the fundamental political 
bargains underpinning the European Union. There is a dearth of vision 
or leadership which only accelerates the erosion of solidarity across 
the continent, while fueling skepticism toward bureaucratic Brussels 
and the rise of anti-establishment forces in member states. Historic 
migration flows compounded by demographic shifts will permanently alter 
the character of Europe, and the political fallout has only just begun.
    Centrifugal forces are pulling Europe apart, as the European Union 
and its leaders stumble from crisis to crisis. While they often reach 
short-term agreements, they fail to address more profound, long-term 
challenges. Today's leaders have not been able to offer the vision and 
sense of purpose that their predecessors articulated and which gave 
birth to the Union--through unity, a ravaged population could find 
peace and prosperity. That formula no longer resonates with reality.
    As a result, the Union itself is in question. The United Kingdom 
may turn its back on the European Union this year, depriving us of a 
critical voice in shaping not only EU policy, but the future of Europe. 
Such a decision by London may prompt Scotland to dissolve the United 
Kingdom, ending the ``special relationship'' as we know it. These moves 
could fuel separatist efforts in Catalonia and Wallonia, while opening 
the prospect of other states leaving the Union. At a minimum, the 
``Brexit'' debate will occupy Europe's political attention span for 
much of this year.
    A stagnating France is struggling to rally Europe around a common 
counterterrorism policy in the wake of the Paris attacks, much less 
play its traditional role as an engine of European integration. An ever 
more powerful Germany and its Chancellor remain perhaps too cautious in 
their leadership at such a turbulent time. After years of feeling 
marginalized, populism and nationalism are beginning to rear their ugly 
head in some of our closest allies in Central Europe. And our 
Mediterranean allies continue to grapple with the corrosive impact of 
long-term youth unemployment and slow growth.
    Europe is in the midst of an historic transition whose outcome is 
uncertain and implications little understood. At the same time, 
American opinion is increasingly ambivalent at best and dismissive at 
worst of Europe. And yet the stakes for the United States in what sort 
of Union the EU becomes are enormous.
    North America and Europe shaped the post-World War II liberal 
international order, and when acting together were the most effective 
force for good globally. We forged a Europe whole, free, and at peace 
in the post-Cold War with the promise of a Europe as a strong partner 
of the United States on the global stage. In fact, Europe became the 
world's largest economy and foreign assistance donor, carries 
significant political throw weight, and provides the most interoperable 
and deployable militaries among our allies and partners.
    However, Europe's internal challenges have now become a critical 
strategic problem for us. We risk losing Europe as our most militarily 
capable, political willing, and financially able like-minded partner to 
advance common interests and shared values. In short, the United States 
risks losing it closest partner. Without Europe, the challenges we face 
will be more difficult and the likelihood of our success will be lower.
    The European Union is not headed toward an ``ever closer union'' 
that would lead to a so-called United States of Europe. Nor is the 
European Union on its deathbed; the bureaucracies underpinning the 
Union often solve problems nations cannot tackle alone and have a 
tendency to self-perpetuate. There is a compelling need for an 
integrated single market, a prospect that remains unfulfilled. The 
European Union is more likely to be pulled during the coming years 
between political forces that demand the primacy of national 
sovereignty and the renationalization of some functions, and others who 
argue that the nature of the challenges facing Europe, whether migrants 
or productivity, require Union-wide policies. The risk is that Europe 
remains mired in the politics of the parochial, and becomes a less 
strategic actor on the global stage.
    As Europe's future is in play, the United States has an opportunity 
to re-engage. As French columnist Natalie Nougayrede wrote in The 
Guardian recently, ``It's not that U.S. action in itself would 
miraculously solve all these problems, but its aloofness has arguably 
contributed to making them worse.'' After all, two devastating World 
Wars taught Americans the costs of remaining aloof to developments in 
Europe. Indeed, the United States fought in World War II not only to 
defeat the Nazi menace, but to help Europe emerge from war in a way 
that would never force the United States to fight again in Europe. 
After 45 years of Cold War, we forged a bipartisan U.S. policy to 
fulfill our national aims, and had a remarkably successful 25-year run 
advancing a Europe whole, free, and at peace. But as challenges grew 
around the globe, we turned our attention elsewhere and assumed our 
role in Europe was complete.
    Today's events make clear that's not the case.
    Our goal today should be to help restore the Atlantic community's 
confidence, competitiveness, capacity, and will to act at home and 
abroad. To achieve this, we can start with several steps.
    First, we must shift from observer to actor, and regain our 
historic role of fostering European unity. The European project began 
as an American project. That said, we cannot simply return to Cold War-
era tactics, and we must recognize that the European Union is far more 
politically mature and sophisticated. But with political leadership and 
nuanced diplomacy, we can play an important role in shaping Europe's 
evolution.
    This begins with making it clear that a United Kingdom without a 
voice shaping Europe is a United Kingdom that risks losing its 
relevance in the world. In turn, however, a Brussels that doesn't 
reform itself to gain more legitimacy among the people of Europe will 
never have the capacity to overcome its biggest hurdles. At the same 
time, we must engage--not isolate--certain allied leaders, providing 
them a political and moral tether, and make clear there is no space for 
illiberal democracies within our community.
    Without restoring economic growth, Europe will not regain its 
confidence. Nor will it significantly increase its investment in 
defense. So restoring growth is a strategic imperative. Our objective 
should be to negotiate an ambitious Transatlantic Trade and Investment 
Partnership (TTIP) agreement to help create a transatlantic marketplace 
based on high regulatory standards that help unleash innovation, 
entrepreneurship, and competition. Such an agreement, along with the 
Trans-Pacific Partnership (TPP), will help ensure that the leading free 
markets of the world set the global standards.
    Third, we must take bold steps to bolster NATO ensuring our 
alliance is strong and restoring its centrality to our national 
security policy. Secretary Ash's announcement yesterday is a major step 
in this direction. This means adopting policies and postures that deter 
Russia, including positioning significant combat forces in NATO's 
eastern flank. We should help build the deterrent capability of our 
eastern allies and partners, including Ukraine, and cooperate with the 
United Kingdom, France, and Italy in particular to sustain their 
military prowess. We should encourage Germany to continue to assume 
much greater defense responsibilities.
    As we commit to Europe's defense, our European allies must step up 
their own defense investments. We need a stronger European pillar of 
the Alliance, but we won't achieve that by ceding leadership of the 
Alliance or passing the baton to the European Union on security 
matters.
    Fourth, the United States must lead Europe in forging a strategy 
toward Europe's east. Europe faces a fundamental security challenge 
from Russia, which the European Union is ill-equipped to manage alone--
consider the unsatisfactory results in Georgia or Ukraine. The 
transatlantic community has held together remarkably well on sanctions, 
but we don't have a comprehensive strategy to avoid allowing Russia to 
hold Europe's neighbors in the east hostage with frozen conflicts and 
occupied territories.
    Our effort should begin with a redoubled, coordinated effort to 
help Ukraine, Georgia, and Moldova succeed in their transformations at 
home, deepen the resilience of their societies, and advance their 
integration into our community and its institutions. At the same time, 
we should work with Brussels to more decisively eliminate avenues for 
Moscow to intimidate or influence European nations using energy or 
corruption. As Russia continues to erode the security architecture and 
undermine arms control agreements that served Europe so well, we should 
focus any dialogue with Moscow on ensuring greater transparency and 
predictability.
    Fifth, Europe's southern challenge is equally our own. Instability 
in Iraq, Syria, Afghanistan, and Libya has helped fuel the historic 
migration and terrorism threat Europe faces today. In turn, this 
migration has reversed one of the European Union's greatest 
achievements of opening borders across its members, and triggered 
beggar-thy-neighbor responses from governments, further undermining any 
sense of solidarity within the European Union. The United States has 
been a central actor in these crises, and as such, carries some 
responsibility not only to address the sources of the conflict 
themselves, but to assist Europe in responding to the refugee crisis.
    The first step is a more decisive approach to Syria, Iraq, and 
Libya, as well as a continued military commitment to Afghanistan. But 
we could also lead in this crisis by joining with Europe on a deeper 
counterterrorism and intelligence-sharing partnership, and, with 
Europe, engage cooperative partners in the region on a major capacity 
building initiative. The United States could also demonstrate moral 
leadership by being more generous in welcoming refugees from the 
region's conflicts and avoiding reactionary policies that could curtail 
too severely programs like the Visa Waiver Program, which undergirds 
the ties among our societies.
    Finally, only the United States can rally the transatlantic 
community toward a greater purpose: we either come together to shape 
the future or cede this role to less benevolent actors or chaos.
    These aspirations are not unachievable. Together, North America and 
Europe laid the foundation for an international order that offered the 
prospect of security, prosperity, and freedom for so many around the 
globe. However, inward-looking political trends on both sides of the 
Atlantic, if left unchallenged, will erode our key institutions--the 
European Union and NATO in particular, but also the International 
Monetary Fund and the World Bank--and allow the global agenda to be set 
by our detractors. But a new era of U.S. leadership can lead an effort 
to help adapt, revitalize, and defend an international order which 
advances security, democratic governance, and prosperity rooted in the 
rule of law.
    The Middle East and North Africa are urgent. Asia is strategic. 
Latin America offers new opportunities. But if we have to face enormous 
challenges in the coming years with Europe in disarray, our task 
becomes even more difficult. If we make a concerted effort now to 
bolster our closest partner, the United States can play a galvanizing 
role involving others on so many issues rather than face them alone.
    Just as you would in politics, let's start by rallying our base. 
Thank you.


    The Chairman. Thank you.
    Ms. Smith.

STATEMENT OF JULIANNE SMITH, SENIOR FELLOW AND DIRECTOR OF THE 
  STRATEGY AND STATECRAFT PROGRAM, CENTER FOR A NEW AMERICAN 
                   SECURITY, WASHINGTON, D.C.

    Ms. Smith. Chairman Corker, thank you very much for the 
opportunity to testify today. It is my pleasure to be here.
    And I agree, in large part, with what Damon just presented. 
I do believe that the EU is in crisis, and I do believe that it 
is at risk of unraveling.
    Given all of the challenges that the EU faces right now, 
whether we are talking about the migration crisis, which stands 
to alter the face of Europe for years to come, or the 
counterterrorism challenges from the foreign fighters that are 
traveling to Syria and that may return to European soil, or the 
homegrown terrorist threat that exists on Europe's territory, 
to resurgent Russia, to the rise of anti-EU political parties 
and the potential exit of the United Kingdom, to the weak 
economies all across Europe, we are now finding that Europeans 
are starting to ask some very hard questions about the 
viability of the EU as an institution.
    Within the EU itself, we have a number of EU officials that 
are asking questions about the EU's vitality as its aging 
structures try to deal with a number of geostrategic surprises. 
In national capitals across Europe, we are finding that member 
states are starting to question EU solidarity as calls for help 
fall on deaf ears. And in the streets of Europe, we find 
European citizens questioning the value of an institution that 
they believe is unresponsive to their needs.
    I believe that America has a vested interest in helping 
preserve this European Project. And I say that for a couple of 
reasons. First and foremost, the United States was not a 
founding member of the European Union, but, through the 
European Recovery Plan--the Marshall Plan, as it is more 
famously called--we were able to help rebuild Europe after the 
war and restore its confidence and make it more prosperous. 
Since then, the United States has had a very strong interest in 
supporting the EU and seeing it succeed.
    Second, I would note that the EU-U.S. is actually the 
backbone--the EU-U.S. relationship is actually the backbone of 
the western alliance. And I think a fractured or divided 
European Union weakens it, and it emboldens our adversaries at 
a time when they are challenging us from all sides.
    Third, the European Union plays a critical role in the U.S. 
foreign policy agenda. I think some like to sometimes joke 
about how the EU has a preference for dialogue over action. 
But, in reality, the EU brings international legitimacy, clout, 
skilled diplomacy, and real capabilities. And they have been 
instrumental in helping the United States on a number of 
challenges in recent months, whether we are talking about the 
Iran nuclear deal or helping the people of Ukraine or layering 
on sanctions against a resurgent Russia, or a very--a variety 
of counterterrorism measures. In short, I think when we talk 
about the European Union, we have to admit that, in this case, 
the whole is, indeed, greater than the sum of its parts.
    I would also note that a weak or distracted Europe or EU 
removes a critical carrot that we have relied on for countries 
that are not yet members of the European Union, and we have 
used, together, that carrot to integrate these countries into 
Western institutions, like the countries in central and eastern 
Europe some time ago.
    I would also state, as was mentioned earlier, that the EU, 
of course, sits at the heart of the global economy. The EU-U.S. 
trade relationship is the largest in the world. And I think a 
collapse of either the Euro or the EU would have severe 
ramifications for the global economy, for the value of the 
dollar, and for U.S. employment.
    As a result, I think the U.S. does need to work to--with 
Europe to try and strengthen and prop up this institution at 
is--as its facing a seemingly intractable list of challenges, 
but I also think we have to be clear-eyed about the degree to 
which the United States can help Europe shape the EU's future.
    That said, I think there are a few things that we can do in 
the short and medium term, and I have outlined those in my 
testimony today, things such as assisting Europe with a 
migration crisis, which, frankly, I think is going to get a lot 
worse this spring, in no small part thanks to Russia's role in 
the conflict in Syria. I think we need to energize and redesign 
the EU-U.S. relationship, which has atrophied in recent years. 
I also think we need to press our friends in London not to exit 
the EU, because it would issue a devastating blow to this 
institution. And lastly, I do think we need to, in the medium 
term, try and focus on delivering on TTIP, the Transatlantic 
Trade and Investment Partnership.
    In this environment that we are in right now, this 
extremely complex security environment with so many challenges 
coming at us each and every day, I think it is easy to stay 
focused and get absorbed with what we are fighting. But, I 
think we also cannot afford to lose sight of what we must fight 
to preserve. And finding ways to harness U.S. leadership to 
ensure that the European Union does not collapse needs to be a 
top U.S. priority.
    Thank you.
    [Julianne Smith's prepared statement follows:]


                  Prepared Statement of Julianne Smith

    The European Union (EU) has long been a symbol of peace, 
prosperity, and unity. But today, in the face of an array of complex 
external threats (a historic migration crisis, the threat of terrorism, 
and a resurgent Russia) as well as internal challenges (the rise of 
right wing parties, the potential exit of one of its largest members, 
weak economies, and a loss of faith in the institution as a whole), the 
EU is at risk of unraveling. Within the EU, officials are questioning 
the organization's future as its aging structures struggle to keep pace 
with and respond to what feels like a never ending series of 
geostrategic surprises. In national capitals, EU member states are 
questioning EU solidarity as countries fail to answer others' calls for 
assistance. And in the streets of Europe, European citizens are 
questioning the value and vitality of an institution that they 
increasingly see as unaccountable and unresponsive to their needs. That 
America has a vested interest in saving the European project it has 
long supported goes without saying. The real question is what to do 
about it. Broadly, the United States needs to reinvigorate and reinvest 
in the EU-U.S. relationship, which has atrophied in recent years. More 
specifically, the United States will have to do more to help alleviate 
some of the external and internal challenges plaguing the EU, most 
notably in regards to the migration crisis. As a country that is not a 
member, the United States faces limitations in what it can do. But 
given the stakes, the United States cannot afford indifference. A weak, 
fractured or failed EU would have devastating consequences for the 
United States, the global economy, and the wider region.
Europe's External Threat Environment
    After several years of relative stability in its immediate 
neighborhood, the EU now finds itself addressing a number of 
compounding security threats. Looking to Europe's south and southeast, 
one finds a region brimming with weak, failing or failed states that 
threaten the European continent with instability, migration flows, and 
terrorism. Syria, the most tragic case and most consequential for 
Europe, has been engaged in a brutal civil war for five years. In 
addition to leaving more than 250,000 dead and 6.5 million internally 
displaced, the war has left large swaths of the country ungoverned, 
creating the ideal operating space for radical terrorist groups like 
the Islamic State and Al-Qaeda. The developments in Syria have created 
two separate but interlinked challenges for the EU.
    The first is a transformative migration crisis on a scale not seen 
since the 1960s when several Western European countries invited ``guest 
workers'' to address the labor shortage following World War II. Last 
year approximately a million refugees arrived on Europe's shores. The 
EU estimates that another two million will arrive by the end of 
2017.\1\ Not all of the refugees that arrived in Europe last year were 
from Syria but the conflict there continues to be the greatest driver. 
\2\ EU officials, trying to strike a positive note and reassure an 
anxious public, stress how, if integrated into the workforce, the 
refugees will boost the EU's economic output. But the reality on the 
ground looks much darker. Countries are erecting border controls and 
razor-wire fences, which might lead to the dissolution of the 
``Schengen Agreement'' allowing for passport free travel throughout 26 
of the EU's 28 countries. Pleas from Germany (the country that has 
taken in the highest number of refugees) to ``Europeanize'' the problem 
and share the burden have fallen on deaf ears.\3\ Tensions between city 
leaders and federal officials continue to rise as cities reach maximum 
capacity at temporary shelters and conclude that most of the refugees 
aren't a good fit for economies seeking high skilled workers.\4\ And 
European efforts to get Turkey to disrupt the people-smuggling networks 
that are bringing many of the refugees to Europe have largely gone 
nowhere. For the EU, this crisis has been devastating, raising 
questions about solidarity among member states and fueling anti-EU and 
anti-immigration sentiment across the entire continent.
---------------------------------------------------------------------------
    \1\ Directorate-General for Economic and Financial Affairs, 
``European Economic Forecast,'' European Commission (Autumn 2015)
    \2\ ``Migrant crisis: Migration to Europe explained in graphics,'' 
BBC News (January 2016)
    \3\ Ibid.
    \4\ ``An Ill Wind,'' The Economist (January 2016)
---------------------------------------------------------------------------
    Beyond the migration crisis that stands to alter the face of Europe 
for generations to come, the conflict in Syria poses a very serious 
national security risk for Europe. Thousands of European nationals--
estimates range between four and six thousand--have traveled to Syria 
to join the fight, often alongside the Islamic State.\5\ Despite an 
array of counter radicalization efforts across Europe, those numbers 
are growing.\6\ In fact, Syria attracts foreign fighters faster than in 
any past conflict, including the Afghan war in the 1980s or Iraq after 
the Americans invaded in 2003.\7\ EU officials' chief concern is the 
ease with which these fighters could return home to Europe and attack 
European citizens. In May of 2014, one such foreign fighter, Mehdi 
Nemmouche, did just that. After a year fighting in Syria with Islamic 
State-linked militants, he returned to Europe and killed four people in 
Belgium's Jewish Museum in Brussels.\8\ Several other alleged terrorist 
plots linked to returnees have been foiled.
---------------------------------------------------------------------------
    \5\ Paul Gonzales, ``Vera Jourova : `Pres de 6000 Europeens sont 
partis faire le djihad' '', Le Figaro (April 2015)
    \6\ Kristin Archik, Christopher M. Blanchard, Carla E. Humud, Derek 
E. Mix, ``European Fighters in Syria and Iraq: Assessments, Responses, 
and Issues for the United States,'' Congressional Research Service 
(April 2015)
    \7\ ``It Aint Half Hot Here, Mum,'' The Economist (August 2014)
    \8\ Charles Lister, ``Returning Foreign Fighters: Criminalization 
or Reintegration?'' The Brookings Institution (2015)
---------------------------------------------------------------------------
    As the Paris attacks in November of 2015 proved, an equally 
worrisome--if not greater--terrorist threat stems from homegrown 
terrorists--European nationals that are radicalized from within Europe, 
sometimes without ever travelling to Syria or other terrorist hotbeds. 
Some of these jihadists have direct links to groups like the Islamic 
State. Others are simply inspired by the group's ideology. Both groups 
have been able to capitalize on a national security system that was 
built and designed for another era and that values freedom of movement 
and freedom of expression. The Paris attacks revealed a number of 
weaknesses in member states' national counterterrorism capabilities. 
But they also revealed several EU shortcomings in the areas of border 
security, intelligence sharing, and the collection of data from the 
movement of people across borderless Europe. With many fearing that 
another large-scale attack is all but inevitable, the EU is under 
enormous pressure to show that it has the capacity and resources to 
protect European citizens.
    To Europe's East, the biggest threat stems from Russia, a country 
that the West spent some 20 years courting and carefully integrating 
into Western institutions and structures. The hope behind all of those 
cooperative efforts and what they might deliver in the future faded to 
black in 2012 when Putin returned to his position as President, a post 
he formerly held from 2000 to 2008. Since then, President Putin has 
rolled back democratic reforms at home, used force to illegally seize 
the territory of neighboring states, violated international norms, and 
used economic coercion to advance his agenda. In response, the United 
States and Europe have issued sanctions and isolated Russia 
internationally. But even though Putin himself recently stated that the 
sanctions were ``severely harming'' the Russian economy, his aggression 
abroad and authoritarianism at home show no signs of slowing.\9\ Still 
frail from the economic crisis of 2008, the 28 countries that make up 
the EU are now struggling to find the best way to deter Russian 
aggression without weakening their own economies. Many of them also 
want to avoid damaging the critical energy ties to Moscow on which they 
still rely. Increasingly, EU member states are divided about the degree 
to which the West should engage Moscow, with views varying depending on 
geography and historical relationships. With Putin likely to remain in 
office at least until 2024, this challenge threatens to divide Europe 
for years to come.
---------------------------------------------------------------------------
    \9\ Robin Emmott, ``Sanctions Impact on Russia to be Longer Term, 
US says,'' Reuters (January 12, 2016)
---------------------------------------------------------------------------
    Any one of these three external challenges--the migration crisis, 
the terrorism threat, and Russia--would be enough to test the limits of 
EU solidarity and capacity. Taken together, though, they are nearly 
intractable and expose deep differences in approach and urgency among 
EU member states. Understandably, the countries in Europe's south are 
more consumed with the migration crisis and the instability in North 
Africa and the Middle East. Conversely, the countries in Central and 
Eastern Europe question the degree to which wider Europe cares about 
their security and whether in an actual crisis with Russia its European 
neighbors to the West would do much about it. The end result has been 
an alarming fracturing of EU solidarity, policy paralysis, and 
inaction, which in turn is exacerbating a number of internal crises.
Challenges from Within
    The EU's struggle to respond to the challenges outlined above has 
only compounded the existing loss of faith in the institution as a 
whole. The message citizens take away from these challenges is that the 
EU can neither defend its borders nor protect its citizens. Citizens 
then pair those messages with the conclusion many of them reached long 
ago that the economic stagnation they face at home is rooted in 
Brussels' overreach. Having failed to solve the structural problems 
associated with the 2008 financial crisis and facing high public debt, 
the EU is not seen as a credible guarantor of European economic policy. 
Europe's growth in 2015 was just 1.6 percent in the euro area and 1.9 
percent in the broader EU (mainly due to a stronger performance by the 
United Kingdom and Poland).\10\ It is likely that growth across the EU 
will remain anemic. Excessive regulation, weak protection of property 
rights, heavy taxation, generous welfare systems and inefficient 
bureaucracies at the national and supranational levels will continue to 
stifle much-needed entrepreneurship and long-term investment. In 
addition to these issues, the viability of the euro remains an open 
question.
---------------------------------------------------------------------------
    \10\ Enrico Colombatto, ``Global Trends: Europe's Weak Spots Ready 
to Become New Crises,'' Austrian Economics Center (January 2016)
---------------------------------------------------------------------------
    Europe's underperforming economies, questions about the EU's 
democratic legitimacy, and concern about threats from abroad, 
particularly refugees, are triggering a backlash against Brussels, one 
that is, as my CNAS colleague Robert Kaplan describes, ``finding 
powerful expression in domestic politics.'' Europe has witnessed a 
notable rise in anti-EU, anti-immigration, anti-austerity parties in 
recent years, which is rooted in large part by the public's growing 
disaffection with globalization. One of the better known examples is 
the National Front in France, which gained 28 percent of the vote in 
the first round of last December's regional elections. (In the second 
round, the right and left united to keep Marine Le Pen's party out of 
power but polls in 2014 showed that she could beat Hollande in a second 
round run off in 2017.) \11\ Similar trends can be found in virtually 
every corner of Europe. Sweden has its Swedish Democrats, The 
Netherlands has the Dutch Party for Freedom, and last October, Poland's 
opposition Law and Justice party, another hard-line, euro-skeptic 
party, won parliamentary elections. And of course, the infamous Viktor 
Orban, Hungary's Prime Minister, with his contempt for much of what the 
EU stands for, will remain in power at least through 2018.
---------------------------------------------------------------------------
    \11\ Hugh Carnegy, ``Poll Shows Le Pen beating Hollande in 
presidential run-off,'' The Financial Times (September 2014)
---------------------------------------------------------------------------
    For the United Kingdom, the uptick in anti-EU sentiment, stands to 
do far more than shift the balance of domestic politics at home. It 
could very well issue a fatal blow to the UK's relationship with the 
EU. British Prime Minister David Cameron promised to hold a referendum 
on EU membership before the end of 2017 if the Tories won reelection in 
2015. In the wake of that Tory victory last spring, Britain's actual 
exit from the EU (``Brexit'') seemed remote. But the polls have 
narrowed in recent months due to the migration crisis and Europe's weak 
economic performance. Cameron is now promising to reform his country's 
relationship with the EU in advance of the vote. But his efforts to 
allow Britain to delay benefits to newly arrived migrants or secure 
recognition that the euro is not the only recognized currency of the EU 
have not gotten very far.\12\ While no one knows when the actual 
referendum will take place, British policymakers as well as Brussels 
bureaucrats are genuinely worried that a ``Brexit'' may indeed occur. 
America should worry too.
---------------------------------------------------------------------------
    \12\ ``What Britain Wants From Europe,'' BBC News (January 2016)
---------------------------------------------------------------------------
Implications for U.S. Foreign Policy
    Will the European Union collapse under the weight of such a long 
list of seemingly intractable internal and external challenges? We 
don't know. What we can predict with relative certainty is that even if 
the EU remains in tact, its ability to shape events in and outside 
Europe will likely be weakened in the coming years. Either one of these 
scenarios--a complete unraveling of the EU or an exceedingly weak EU--
spells trouble for the United States. The EU, after all, was an 
American project of sorts. The United States obviously wasn't a 
founding member but its European Recovery Program--more famously known 
as the Marshall Plan--helped rebuild Europe after the war, restore its 
confidence, and make it prosperous once again. Between 1948 and 1952, 
Europe's economies grew at an unprecedented rate, and the development 
of the coal and steel industries helped shape the EU we know today.\13\ 
Since then, the United States has had a strong interest in seeing the 
EU succeed and grow.
---------------------------------------------------------------------------
    \13\ The George C. Marshall Foundation, ``The History of the 
Marshall Plan,'' GCMF (December 2015)
---------------------------------------------------------------------------
    For decades, the EU-U.S. relationship--along with the NATO 
Alliance--has served as the backbone of the Western Alliance. A 
fractured or divided EU would weaken that critical alliance and 
embolden our adversaries at a time when multiple actors around the 
world are challenging our resolve and unity.
    President Putin is already doing everything he can to capitalize on 
and fuel the rise of anti-EU sentiment across Europe with the goal of 
dividing Europe and driving a wedge between the United States and 
Europe.\14\ Preventing the further weakening or complete fracturing of 
the EU is therefore in America's national interest.
---------------------------------------------------------------------------
    \14\ Russia's active support for parties on the far left and far 
right has been well documented. See https://www.wilsoncenter.org/sites/
default/files/pc--prezi--wilsoncentre.pdf
---------------------------------------------------------------------------
    Historically, the EU has played a critical role in the U.S. foreign 
policy agenda. A weakened or failed EU would result in the loss of one 
of America's most reliable and closest partners. Americans sometimes 
joke about the EU's preference for dialogue over action and its 
struggle to throw its weight around in the national security realm. But 
the ``whole'' of the EU is almost always greater than the sum of its 
parts. Partnering with the EU brings international legitimacy, clout, 
skilled diplomacy and real capabilities. The EU has been an 
indispensable partner in a number of U.S. foreign policy priorities, 
including, most recently, the Iran nuclear deal, sanctions against 
Russia, counterterrorism cooperation, and supporting the prosperity and 
territorial integrity of Ukraine following Russia's illegal annexation 
of Crimea. Those that assume that a collapse of the EU would benefit 
the United States by enabling it to focus on only the strongest 
European partners lack an appreciation of how Europe works. A failed 
European project would very likely result in a distracted, divided, and 
discombobulated Europe, unable to focus on the outside world and 
incapable of making valuable contributions to joint missions with the 
United States. Today European soldiers are serving alongside the United 
States in Afghanistan and assisting the United States in the anti-ISIS 
coalition to name just two examples. Those soldiers are not serving in 
EU missions but it is hard to imagine countries making such 
contributions--under any multinational framework--in the face of an EU 
collapse.
    A weak or distracted Europe also spells disaster for countries that 
fall between Europe and Russia, countries such as Moldova, Georgia and 
Ukraine. For these countries and for so many in Central and Eastern 
Europe that are now members of the EU, the prospect of EU membership 
has been an important way to spur much-needed reform while integrating 
these countries into Western institutions. Without the ``carrot'' of EU 
membership, the United States and Europe would lose one of the most 
effective tools in security their long repeated goal of a Europe that 
is ``whole, free, and at peace.''
    Finally, the EU sits at the heart of the global economy. It is 
comprised of 28 nations but operates as one large market with a total 
GDP of $18.51 trillion.\15\ And, while it may only be home to 7 percent 
of the world's population, the EU's trade with the rest of the world 
accounts for about 20 percent of total global exports and imports.\16\ 
An economic collapse would spell disaster not only for the West, but 
the entire global economy. Ultimately, the negative impact of an 
economic disaster in Europe would be felt heavily by the United States. 
The U.S. and EU's bilateral trade relationships is not only the largest 
in the world, it is also the most complex. In 2015 alone, the U.S. 
exported almost $251 billion dollars in goods to the EU.\17\ The 
transatlantic relationship also employs up to 15 million workers in 
mutually ``onshored'' jobs on both sides of the Atlantic.\18\ A 
collapse of the euro would mean far fewer U.S. opportunities to export 
goods and services to Europe due to the unaffordability of the dollar. 
It would also be disastrous for U.S. and European employment. Most 
troubling, the chance for another economic recession with worldwide 
consequences, reminiscent of 2008, would loom overhead.
---------------------------------------------------------------------------
    \15\ The World Bank, Data on the European Union (2016)
    \16\ The European Union, About the EU, Facts and Figures, The 
Economy (January 2016)
    \17\ The United States Census Bureau, Trade in Goods with European 
Union (January 2016)
    \18\ Daniel Hamilton and Joseph P. Quinlan, ``The Transatlantic 
Economy 2015,'' Center for Transatlantic Relations (2015)
---------------------------------------------------------------------------
A U.S. Response
    The United States must be clear-eyed about the degree to which it 
can and should shape the future of the European Union because it is 
not, after all, an actual member. And Europeans themselves will tell 
you that there are no quick fixes to the countless challenges facing 
this institution. But the United States needs to make its relationship 
with Europe a priority and take a number of steps to strengthen 
Europe's position in the world, alleviate some of the pressure bearing 
down on Brussels, and enhance the EU-U.S. relationship.
    Assist with the Migration Crisis: By far the greatest pressure on 
the European Union stems from the migration crisis. Just to provide a 
sense of scale, last year in the month of January, Germany welcomed a 
total of approximately 2,000 refugees. This January, Germany welcomed 
approximately 2,000 refugees PER DAY. In fact, January's total refugee 
count in Germany came to 64,700.\19\ This total comes mid-winter when 
refugee flows are supposedly at their slowest. As Europe prepare a plan 
to address what will no doubt be a significant surge this spring 
(thanks in no small part to Russia's role in the Syrian war), it is 
imperative that the United States do its part. As Harvard Professor 
Michael Ignatieff stated in a recent report on the subject, ``this is 
more than a humanitarian drama. It is a strategic challenge for the 
United States.'' \20\ With Europe expected to double or possibly triple 
the million refugees it accepted in 2015, America should commit to 
accepting at least another 65,000 refugees. We shouldn't just do this 
because it would signal strong U.S. leadership and reinforce U.S. 
values. America should shoulder some of the burden of this historic 
migration crisis because it is threatening our closest allies in ways 
that will ultimately threaten the United States.
---------------------------------------------------------------------------
    \19\ I was given this figure by a senior ranking member of the 
German Foreign Ministry.
    \20\ Michael Ignatieff. ``The United States and the Syrian Refugee 
Crisis: A Plan of Action,'' Prepared for the Holbrooke Forum, American 
Academy Berlin at the Brookings Institution on February 4-6, 2016.

    Energize EU-U.S. links: In recent years, U.S. willingness to join 
an array of EU-U.S. engagements at all levels--including at the Heads 
of State level--has waned. In 2010, President Obama decided not to 
attend the scheduled EU-U.S. Summit, causing the EU to cancel it. 
Irrespective of the reasoning behind that particular decision, U.S. 
policymakers along with their European counterparts regularly question 
the utility of the heavily scripted exchanges that rarely result in the 
free exchange of ideas. However frustrating such engagements might be, 
it behooves both partners to now invest in these forums while altering 
their format. Today's complex security environment demands that our 
international institutions and forums be agile, flexible, and 
innovative. Reenergizing EU-U.S. engagements at all levels, including 
with the U.S. Congress, should be a priority. But carrying on with the 
traditional, hierarchical formats of the past should not. The EU and 
the United States should use quarterly and annual engagements to run 
table top scenarios, conduct forecasting, share intelligence, and 
---------------------------------------------------------------------------
foster dialogue with the private sector and NGOs.

    Press the United Kingdom to remain a part of the EU: Telling 
another country what is in their national interest is rarely a good 
idea. And in this case, the United States publicly urging British 
citizens to renew their faith in an institution that has failed to 
address their list of grievances may very well backfire. But senior 
leaders in United States should stress to their British counterparts 
the geostrategic risks that a UK departure from the EU would pose. Such 
a departure would not only issue a crushing blow to the future of the 
European Union, it could also jeopardize the ``special relationship.'' 
Post exit, Britain would be subject to ``the same tariffs, and other 
trade-related measures, as China, Brazil, or India,'' warned Michael 
Froman, the U.S. Trade Representative. That scenario is neither in the 
interest of the United Kingdom nor in the interest of the United 
States.

    Get the Transatlantic Trade and Investment Partnership (TTIP) Done: 
A new trade agreement between Europe and the United States would 
provide much needed economic growth, position the two sides of the 
Atlantic to set global standards in a number of sectors, and send a 
clear message about the U.S. and EU's willingness to open markets in 
order to more easily facilitate trade and cooperation. It would also 
breathe fresh life and energy into the transatlantic relationship at a 
time when the West is worried about its share of global power and the 
durability of the liberal order. Just as Truman launched an ambitious 
campaign to educate the American public about the Marshall Plan, 
Washington and Brussels need to launch their own engagement plan that 
would answer tough questions, directly engage stakeholders, and counter 
the anti-TTIP narrative dominating the debate today. This project's 
value stretches far beyond creating jobs and boosting exports but one 
would never know that from the way the two sides have been promoting 
it.

    In an environment where global crises seem to erupt almost every 
month, it is easy to become consumed with what we are fighting--
terrorists, land grabs, global pandemics, rogue states, governments 
that are killing their own people, and interstate war. But as we take 
on such challenges, we cannot afford to lose sight of what we must 
fight to preserve. The European Union is a critical component of a 
liberal order that has benefited the West and the United States in 
countless ways. Finding ways to harness U.S. leadership to ensure that 
institution does not collapse therefore needs to be a top priority for 
the United States.


    The Chairman. Thank you both for your testimony.
    Now, Ms. Smith, I apologize for having to step out a 
moment. It is part of being around here.
    Let me ask you both this. I look at Cameron's ask, if you 
will, of the European Union, and it is hard to discern whether 
they are real, from a standpoint of substance, or whether he is 
just looking for something, if you will, to say that he got 
something, or whether it is all being totally driven by just 
internal politics. And I would love to have your assessment of 
what his requests are at this moment, and what is actually 
driving them and if you sense a real desire on his part just to 
get something so that, if you will, the debate about the 
referendum will be different in nature.
    Mr. Wilson. Sure, I can take that first.
    It is a combination of both. Politics is driving it, and it 
is built on the backbone of some key issues. His four asks are 
about the protection of the non-Euro area, the city of London 
in particular, competition issues within the EU, the sense of 
an ever-closer union, and benefits restrictions. All of them 
have merit, particularly in the British debate and expectations 
about the EU.
    I have two concerns, however. Fundamentally, I think the 
backlash against the EU is its perception as an institution. 
That is, it has been seen as becoming an overly bureaucratic, 
intrusive element of life based out of Brussels. What the four 
asks do not deliver is a fundamental rethink and reform of how 
the EU actually operates.
    But, the second side of this equation is the riskiness of 
what Prime Minister Cameron has put in play. Whether he gets 
the degree of concessions on any of these four issues may, at 
the end of the day, be--I do not want to say irrelevant, but 
the amount of refugees flowing into Europe the week of the 
referendum may have more to do with the outcome of that 
referendum. I think it is a very risky proposition, as you can 
see, the fluctuation in how people vote in referendums. The 
vote could become an alternative substitute for expression of 
other concerns about what is gripping Europe. And in today's 
turbulent times with, as you see in Europe, I think it is a 
very risky proposition that, even if he were to get everything 
he wants--and I think his European partners who have dragged 
their feet on this, but will come along--I am not sure that is 
the fundamental issue that the British people will take to the 
polls.
    The Chairman. Ms. Smith.
    Ms. Smith. I would just add, when Cameron decided to commit 
himself to this referendum around the election last year, I 
think the risk of the folks in the U.K. actually voting to 
leave the EU was relatively low. The EU and the U.K. have 
always had a complicated relationship. And, to be sure, there 
has been a significant debate about the value of the U.K. being 
inside the EU for quite some time. But, as Damon pointed out, 
now this is a risky gamble, because the migration crisis has 
layered on additional complaints and concerns about the EU's 
ability to protect its citizens and to protect its borders. And 
when you pair that with just general disaffection about 
globalization, you have got a dangerous mix, where we are now 
seeing some polls indicating that this could, in fact, very 
well happen.
    Now, if the EU actually delivers on some of the requests 
that Cameron has made, to show that he is bringing about 
reform, maybe we can--they can persuade the U.K. public that 
this is worth continuing to engage in as an institution. But, 
again, I am not exactly sure Brussels is ready to go as far as 
Cameron needs it to go. And I am not exactly sure that the 
leadership inside London is prepared to press the U.K. public 
on the geostrategic value of being inside this institution.
    I think our role is going to have to be careful--a careful 
one. If we give a very public bear hug to our friends in 
London, and stress the importance of the EU, in some cases that 
can backfire. I think, that said, we can send very important 
messages to other folks in leadership positions and drive home 
the point that we view this as a critical decision point, one 
that would affect the transatlantic relationship, the U.K., and 
the United States directly.
    The Chairman. On that note, just briefly, I--I know the 
President is planning to make a pretty big public outreach in 
this regard. I remember Cameron pushing us on some issues that 
recently came out. I have got to be honest. It was not received 
well. It certainly was, by me personally. So, how do you think 
the people of U.K. will respond to us, at the highest level, 
embracing this, if you will?
    Ms. Smith. Well, I think, you know, in the words of my 
former boss, Vice President Biden, it is never in your interest 
to tell another man what is in his interest. And it presents 
itself with challenges and, again, can backfire. But, I think, 
in this case, laying out a geostrategic debate, not trying to 
lecture the U.K. public, not trying to make the full case of 
why they need to continue to be part of this institution, but 
to give a little perspective--they are looking at it very much 
through a domestic lens, and I think it would not hurt to make 
a broader debate about the state of the world. We face a 
resurgent Russia. We face challenges in Europe's south. We need 
transatlantic unity right now more than anything. And laying 
that out for the British public, no doubt, would be helpful. 
But, again, it has to be perceived in the right light and not 
be perceived as lecturing.
    The Chairman. Let me ask the--I met with the Secretary 
General of NATO at the forum I was telling you about earlier. 
And I guess there are some elements within Europe now that are 
beginning to look at the European Union having its own security 
alliance, which--you know, it is interesting. We cannot even 
get most of the countries to pay their fair share, relative to 
NATO. As a matter of fact, one of the few countries that is--
U.K. just passed a budget that takes them there eventually. 
Greece, believe it or not, is one of the few countries that is 
actually contributing at 2 percent. So, all of this that is 
happening--and you have got the Russian issue that certainly is 
putting external pressure on the union--but, how are all the--
all of these issues affecting, from your perspective, the NATO 
alliance, itself, which, from a national security standpoint, 
is obviously very, very important to us and--I hate to be too 
pejorative, but to them, as consumers of our security services, 
obviously very important to them, whether they want to 
acknowledge that, or not--but, what--how are these pressures 
affecting the NATO alliance, itself?
    Mr. Wilson. Excuse me, Senator, I think this is 
fundamental. When the--in a time right now when the greatest 
challenge in Europe is from a resurgent Russia and its 
approach, we need a stronger European pillar on security, but 
that is going to be sufficient. The Russians will not even take 
the EU as a serious interlocutor on these issues. So, part of 
what we are going through--what we are seeing right now--and a 
lot happening, but insufficient--is a NATO that is relearning 
actually how to think about defense on the continent. We have 
lost the muscle movements of doing this. And it has to be U.S.-
led, but it has got to galvanize the Europeans. We are seeing 
that now with a group of countries in the east joining some of 
the others and moving their defense budgets up. But, the real 
challenges are, Where is Germany? Where are some of the key 
laggards, if you will, in the investment.
    The Chairman. Yeah, Germany is at 1 percent, I might add.
    Mr. Wilson. Right.
    The Chairman. And, of course, we have, you know, a plethora 
of NATO and U.S. troops in Germany, which I think makes them 
feel pretty safe.
    Ms. Smith, you want to address that?
    Ms. Smith. Over the years, for quite a long time, we have 
been hearing about plans for the EU to strengthen its foreign 
and defense capabilities and policies pretty much since the 
late 1990s, and we have always had concerns about what it would 
ultimately do to NATO and what impact it would have
    The Chairman. Yeah.
    Ms. Smith. On the other hand, we have also had times where 
we have realized we need more capacity. And if it is helpful 
for European countries to develop that capacity inside EU 
channels, in essence, we are talking about the same set of 
troops.
    But, the reality is, right now, with an EU that is 
distracted, divided, resource scarce, I think this is a second-
order priority. And, frankly, I do not see the EU making any 
advances on this front.
    It does, however--what is happening inside Brussels --play 
into the NATO alliance, and it worries me and Damon and others 
greatly. We talk about this regularly, about how we have a 
Europe that is distracted by a number of internal crises, and 
it prevents the alliance, in many ways, from lifting its head 
and looking out at the challenges to its east and its south. 
There have been a lot of things done since Russia annexed 
Crimea, important initiatives by the NATO alliance. But, 
frankly, when you talk to the folks inside the alliance, you 
feel the strain, you feel the divides. We have countries in 
central and eastern Europe that are questioning the Article 5 
commitment, worried about solidarity inside NATO and the EU, 
and really are turning to the United States, in many ways, to 
deliver, should any crises erupt on NATO territory.
    The Chairman. Thank you both. I know there are numbers of 
other questions.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Good to see you both.
    One quick attempt at a counter-narrative, and then a few 
specific questions.
    You can certainly view all of these challenges that we have 
listed--Russian aggression, the Greek crisis, the migration 
crisis--as weaknesses within the alliance, but you can also 
read them as strengths, given the fact that, in each instance, 
there was an existential threat to the European Union itself, 
and they have, thus far, adapted and survived all of these 
crises, which, you can argue, in the lifetime of the alliance, 
are as big and as tough as they have faced. And so, I do not 
deny that there is some level of crisis, but you can read the 
reaction to many of these challenges in an optimistic way just 
as you can read it in a pessimistic way.
    And so, I want to take one of the--one of the, sort of, 
slow-burning crises, underneath the broader umbrella, that 
maybe does not get a lot of attention. And I will direct the 
question to you, Mr. Wilson. And this is the crisis of data-
sharing within the European Union and then with the United 
States.
    So, our ability to protect ourselves as a nation with the 
No Fly List is only as good as the information that is shared 
within Europe about law enforcement and then shared with the 
United States. In addition to the importance of law enforcement 
data, we also have a major outstanding question about how U.S. 
technology companies are going to be able to do business in 
Europe with a European court case right now that compromises 
the relationship that our companies have with European 
governments.
    As you probably know, we have a piece of legislation that 
is pending on the floor of the Senate right now, the Judicial 
Redress Act, which the Europeans have said is both a--
preconditioned to a new law enforcement agreement, the umbrella 
agreement, going into effect and is necessary to also work out 
this question over how U.S. technology companies are going to 
interact in Europe.
    I just wanted to ask your opinion about the importance of 
this piece of legislation, which is pending on the floor of the 
Senate today, but also your assessment of how Europeans are 
doing amongst themselves in sharing data, especially when it 
comes to potential terrorism investigations, and how much more 
pressure we can put on them to populate the records that we 
share in a more meaningful way.
    Mr. Wilson. Thank you, Senator.
    On your first point, on the narrative--over the long term I 
am optimistic. As you think about what is happening with 
today's complexity, our societies--the United States and 
Europe--are the most capable of managing dynamism and change. 
So, this is messy. I think the crises are real. We are slow to 
galvanize and rally. But, we will move in the right direction. 
I think this gives us a leg up, if you think globally, and we 
actually need to be able to understand that we can harness that 
change and dynamism because of the nature of our open 
democratic societies. And that is why coming together gives me 
optimism over the long term.
    On the specific issue you raised, the division between the 
United States and Europe on digital privacy, cyber--first of 
all, the principle is, that division is very unhelpful. It 
opens the space for adversaries, and it really creates problems 
for American firms. So, how do we get aligned? And I think we 
are moving in that direction. You have seen the recent--the 
deal that has been announced, and this piece of legislation, 
the Judicial Redress Act, I think, is part of that. We need to 
take privacy seriously. It is an engine for economic growth, so 
we have got to get this right. And we have got national 
security elements there.
    I think that the legislation that is under debate right now 
provides some of the assurances for privacy protection, and 
provides the safeguards we need on national security. The 
movement in the Senate, combined with the negotiations that 
have just played out, is a way to help bridge this gap and 
ensure that this does not become a big transatlantic divide, 
opening space for those that do not share our interests., It 
remains crucial that we come to an agreement, that is both 
practical, security-oriented, and political, that allows 
American companies to compete while still taking privacy 
seriously and protecting our security interests.
    Senator Murphy. Mr. Chairman, the legislation that I am 
talking about is out of the Judiciary Committee. It is Senator 
Hatch's and my legislation, pending on the floor. And I think, 
as a committee, it would be important for us to weigh in on its 
passage. It passed the House unanimously, so it is just waiting 
on us.
    Ms. Smith, I wanted to just turn to this new $3.4 billion 
European Reassurance Initiative that was announced. I am 
wholeheartedly supportive of it. I think it scratches many of 
our allies exactly where they itch. But, it worries me in only 
one respect, which is that, you know, I think we need to have a 
recognition that military influence is the method of last 
resort for the Russians, in terms of how they expand their 
influence in and around the continent. Their preferred means of 
influence is buying off government officials, extending the 
reach of their propaganda campaigns, further monopolizing 
energy trade. And yet, we are not announcing a quadrupling of 
our assistance for anticorruption programs or energy assistance 
or anti-propaganda campaigns or economic development assistance 
for developing nations on the periphery of Russia. So, maybe 
talk to me about, sort of, what a right-sized U.S. approach is 
to countering Russian interference and influence. And am I 
right that this cannot simply be a question of putting more 
troops in and around the Russian border? Because, ultimately, 
that is playing a different game than the Russians are really 
playing on a daily basis, separate and aside from what they are 
doing today in places like Ukraine or Georgia.
    Ms. Smith. You are absolutely right, Senator. Russia has 
very skillfully relied on an array of instruments to show its 
aggression towards neighbor states, some inside NATO territory, 
some outside. Obviously, Ukraine, the best case in point. They 
are relying on strategic communications tools, cyber tools, 
energy, coercion. They are using every tool in their toolbox. 
And our response has to equally be a full-spectrum response. We 
need a plan, and we need resources for the agencies in our 
government to address some of these other areas.
    I fully support what DOD is doing, and I applaud it. I 
would like to see it become permanent. And I think it is an 
important part of our deterrence posture to deter the Russians 
from messing around on NATO territory and further pursuing its 
aggressive behavior, even in non-NATO member-states territory.
    But, all that said, DOD cannot be the only agency crafting 
a proper response to the threats stemming out of Moscow. And I 
think you are right to stress not only resources--the 
importance of resources and new policies and tools being made 
available in the U.S. Government, but also inside the NATO 
alliance, inside the EU-U.S. relationship. There are other 
roles for international institutions to play. NATO is trying to 
grapple with the cybersecurity threat, but has not made 
significant progress. We, as the United States, should lead 
that effort inside the alliance. But, we have to get our house 
in order here at home and ensure that we are presenting our 
allies with a full-spectrum response to what Russia is bringing 
at us right now.
    Senator Murphy. I just think we are playing into their 
hands if our only response is a major plus-up on military 
support. That is incredibly important, but it has got to be 
complemented by other pieces of this puzzle.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you very much.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you both for you testimony and your insights.
    I wanted to explore with you a concern I have that gives me 
the sense that we, in many different moments in bilateral 
contexts, have effectively conceded our position of relative 
power or strength, vis-a-vis a certain set of circumstances, in 
order to come to an accommodation. Now, accommodation, in and 
of itself, is something to aspire to, but it is the nature of 
the accommodation that is very important.
    So, without going through a listing of what those 
accommodations have taken place that make me concerned, I look 
at these reports of a negotiation between the United States and 
Russia, vis-a-vis Ukraine. And my question is, With respect to 
Ukraine, would you say that the United States or Russia holds 
the relative position of strength or power?
    Mr. Wilson. Senator, this is an excellent question, because 
this is the lesson--
    Senator Menendez. The only ones I ask. [Laughter.]
    Senator Menendez. Well, at least I would like to thank so, 
but they are not always so good. So, anyhow.
    Mr. Wilson. Well, you are hitting at a point that the 
Russians have internalized. We are uncomfortable with an 
uncomfortable relationship with Russia. And we--the Russians 
have watched us, over years of diplomacy in the transatlantic 
community--negotiate with ourselves when we are in a tight spot 
with the Russians. If you look at the, frankly, sloppy--but, 
for an understandable reason--sloppy diplomatic agreements over 
Georgia or Ukraine--these are negotiated in a crisis, late at 
night--the Russians have learned that there is not really great 
stomach in fighting for some of these issues. We are committed 
to the principles, but do we really want to fight to apply them 
in some of these messy countries, which are messy? So, I think 
the accommodation issue that you raise is the red flag we have 
to watch out for right now. You listen to some of our European 
allies, some of our counterparts here, and there is an 
eagerness to figure out, How do we get this right? We may need 
a dialogue with Russia because of transparency, predictability 
issues. This is a dangerous set of issues that are unfolding. 
But, we need to hold firm on some of the core principles: the 
restoration, ultimately, of Ukraine's national sovereignty and 
control of its territory. The Russians have the short-term high 
ground because of facts on the ground. The strategy that 
Senator Murphy was referring to is why it is so important not 
to piecemeal it. When you roll out sanctions by themselves, 
well, that causes some questions in Europe about the costs that 
we pay. When you roll out military by itself, it is a little 
bit of a--it does not capture the spirit.
    What deterrence is, is an understanding in Moscow that 
there is a comprehensive, long-term strategy that the United 
States is leading, with its European partners, that is based on 
these certain principles and values so that the pathway of 
short-term accommodation is not going to be where we go. We 
have sort of swallowed some of that, as we have seen the 
aftermath of 2008 in Georgia. The Russians are banking on that 
in this crisis, and I think it is absolutely right to say, 
``You know, we are comfortable with an uncomfortable 
relationship with you right now. Here are some of the 
principles that we are guided by.'' And it does not mean you do 
not talk, but it does not mean you open up this pathway to 
actually salami-slicing your own principles.
    Senator Menendez. Ms. Smith, I--when I heard you talk 
before--I want you to answer that question, too, but, when I 
heard you talk before about the Russians using all of the tools 
in their toolbox, they are seeking to divide the union, using 
NGO monies, energy as a form of blackmail, I would say--in my 
words, not anybody else's--but, you know, tell--talk to me 
about this concern about accommodation when they are using all 
the tools in their toolbox and, my sense is, we are not using 
all of the potential tools we have in ours.
    Ms. Smith. Yeah, I think--you are absolutely right --I 
think in--Russia does look across the Atlantic and look at its 
European partners, and they see that we are distracted, they 
see that we are, in many ways, divided on next steps. I think 
they see and they hear the rhetoric coming out of Europe--- in 
particular, questioning the utility of our sanctions policy. 
And they know that we are all worried about our ability to stay 
the course on the sanctions policy, which is one of the 
strongest tools that we are using right now. They see that we 
have limited resources, in some ways. The U.S., from a military 
perspective, obviously has fewer forces in Europe. And so, they 
do feel emboldened right now, particularly as they look at 
Brussels and see the number of crises that are hitting this 
institution on a weekly basis. And so, what we have to do is 
push back and, obviously, invest in a wider toolkit, but, most 
importantly, we have to preserve this transatlantic unity and 
not let the divides and discussions we are having on sanctions 
really steer us off into a divided Europe and the United 
States.
    And I do think the United States needs to get more engaged, 
vis-a-vis Ukraine. We have relied heavily on our friends in 
Paris and Berlin to really lead the negotiations through this 
Normandy format. I think that was a smart move initially, but 
now I would really like to see a formal role for the United 
States in that process. We are obviously in close touch with 
our European allies all the time, and talking to them on a 
regular basis. But, this needs to be a concerted transatlantic 
approach.
    And so, I would like to see us up our game, so to speak, 
and invest in other instruments, and have a little bit more of 
a--of resolve as we address Russia and try and take on this 
challenge, which is, by no means, going away.
    Senator Menendez. And, in that line, I think the last time 
you testified before the committee was the Subcommittee on 
European Affairs, back in 2014, I think, and you said, at that 
time, that, moving forward, we need to keep Crimea, quote, ``in 
the back of our minds,'' and the key to dealing with Russia was 
getting the NATO piece right.
    In 2016, now, and with another NATO summit set for this 
summer, what do you believe the focus should be on getting the 
NATO piece right?
    Ms. Smith. Well, what was announced yesterday by the United 
States is a good first step. What happens, oftentimes, is that 
the U.S. chooses to lead, and we spur action on the part of our 
partners. We saw, in the case when Russia first annexed Crimea, 
first went into Ukraine, that, when the United States came 
forward with a billion-dollar commitment, it then was able to 
knock on the doors of our European partners to say, ``What will 
your piece be of this? We are not going to do this alone. We 
will do this as partners. This will be our contribution, but we 
need you with us.'' And that is a much stronger negotiating 
position than simply coming in and saying, ``What will you guys 
be prepared to deliver?'' And so, similarly, now, as we 
approach the Warsaw Summit, the U.S. again comes to the table 
saying, ``Folks, we have tripled our commitment here, and we 
need all of Europe to step up and help us,'' not--again, to 
Senator Murphy's point, not just in regards to the military 
instrument, but, really, we have to come with a broader plan, 
here.
    But, I do think the focus--look, at the--the last NATO 
summit, in Wales, was very much on reassurance, right?
    Reassuring our allies in central and eastern Europe. Very 
important. We did some good work there. But, now we have to 
focus heavily on deterrence and figure out what more we need to 
be doing to deter the Russians from doing anything crazy. 
Because if there is one thing we have learned in the last 2 
years, it is that they are entirely unpredictable. And so, we 
should make no assumptions. I know people say, ``Well, they 
would never do X, they would never do Y.'' Let us not be so 
sure about that. Let us be prepared at every turn. And I think 
the NATO alliance is working toward some new initiatives, but 
it is going to require a lot of leadership that is in short 
supply, particularly on the other side of the Atlantic.
    Senator Menendez. Mr. Wilson, any observations?
    Mr. Wilson. I think there are four key points for the 
alliance. It is this shift from reassurance to deterrence. 
Reassurance means you do not really trust me, and I need to 
reassure my allies. Deterrence focuses on the mindset of the 
adversary. I would, in fact--I think Secretary Ash's 
announcement was great--I would rename it. Not the European 
Reassurance Initiative. We have got to decisively move in 
Warsaw to deterrence.
    Second is resilience, the resilience of our own societies, 
particularly those in the east, because of the other methods 
that the Russians are using. That has to enter into a plank in 
the NATO discourse, and not just be left to the European Union.
    Third is really the idea that the alliance had so long 
embraced about how it projects stability. Well, right now, it 
does not want to have that conversation. The alliance does not 
know what its role should be with some of other partners in the 
east and the south. We need to get over some of that concern 
about NATO in Ukraine or--we need to be building deterrent 
capability in Sweden, Finland, Ukraine, Moldova, Georgia--
defense capacity initiatives. That is a big gap right now for 
the Warsaw Summit, because it is politically sensitive.
    And then the final one, the current debate that is really 
pulling at the alliance, is how to structure a dialogue with 
Russia, where some do not want it, some do not trust the nature 
of it. And I think there is a case to be made for transparency 
and predictability, but it needs to be done in a way that does 
not play on the neuroses of some of our allies that fear the 
dialogue will lead to accommodation, if you will.
    The Chairman. Thank you.
    Senator Cardin.
    Senator Cardin. Well, thank you both for your participation 
here.
    Let me--we talked about the NATO summit. And Europe has had 
the operations of the OSCE for a long time. It works under the 
three pillars for stability: certainly to be able to defend 
your borders; economic opportunity is absolutely essential; 
but, also the pillar of good governance, democracy, human 
rights. So, you have given some response to the NATO summit in 
regards to the military threats to our NATO allies coming from 
Russia, but let me talk from within for one moment.
    We have NATO allies that have done things that are 
inconsistent with the commitments to good governments and 
democracy, the most recent being the actions in Poland in a law 
that curbs the media and judicial freedom. We know the extreme 
party in Hungary and its impact on decisions in that country. 
And there are others. So, as we talk about a strategy for long-
term stability and strength and unity in Europe, it needs to 
reflect the values that I said in my opening statement.
    So, what strategies should we be deploying, either at a 
NATO summit or in our conversations with Europe or in our 
investments to strengthen the democratic institutions, 
including in countries that we thought we had already crossed 
that bridge?
    Mr. Wilson. Senator, this is a critical point, because, at 
the end of the day, what makes this relationship quite valuable 
and special is the anchoring of the values that bring us 
together. This is not a transactional one-time alliance. It is 
built on that longevity. And this has been challenged.
    The OSCE is an important instrument in this domain. In 
fact, you see the European Union often struggling to come to a 
common position in the OSCE over the values-and-interests 
angle. I think that is alarming, because it opens up space for 
divisions.
    I think there needs to be a serious set of private 
consultations. Part of the problem we have--and I have talked 
to some of these leaders who we have some concerns about with 
what they are doing--they feel a little bit isolated. They see 
a lack of leadership. They are kind of turned off by what is 
happening in Brussels. And they are not really engaged at the 
political level very much in the United States. This is not an 
excuse for them, but they have used that to take their marbles 
and play another game at home.
    These are our allies. They are treaty allies. We are 
committed to defend each other. We cannot let this corrode and 
go in that direction. So, as we think about corruption as a 
national security issue, it is the avenues of corruption that 
Russia is using--have used to manipulate Ukraine, and are now 
using in Europe. The State Department has begun important work 
in this area. But, corruption is a national security issue, 
and, therefore, how we plan, think, our intelligence, the way 
we operate around that set of issues needs to be higher among 
our priorities, combined with serious political engagement. We 
have not had some--at the senior political level, some of these 
leaders have actually never been engaged that way. They are our 
allies. I think we have to engage them, embrace them with some 
very tough love but privately.
    And so, I think there is a political piece and a 
corruption-as-a-national-security strategy that needs to come 
together. And it can play out at NATO, it can play out at the 
OSCE. I would not wed it to one institution. But, I think we 
need to play a role, particularly in galvanizing, perhaps, 
Chancellor Merkel as our partner in taking this on.
    Ms. Smith. I agree with everything that Damon said. I think 
engaging these types of leaders directly is absolutely 
critical. Many of them lack relationships here in Washington. 
And I think reestablishing those ties and making clear to them 
that the United States is concerned about some of the 
developments that they are seeing unfold in their own countries 
is going to be critical.
    But, I also think trying to figure out how we can support 
civil society in these countries is absolutely critical. We 
have some institutions that do terrific work, but, frankly, we 
could be doing a lot more.
    This whole agenda set has atrophied quite significantly 
over the last 20 or so years, because I think we all thought 
that Europe was whole, free, and at peace, and now we have come 
to learn that there are some troubling developments within the 
European continent. And so, I think reengaging those ties and 
providing, in some cases, resources to American nonprofits or 
think tanks that are focused on engaging civil society in these 
countries will be absolutely critical, moving forward.
    Senator Cardin. Clearly, Russia's engagement in Ukraine is 
the driving force for the instability. There is no question 
about that, with Crimea still under Russian control and their 
influence in the eastern part of Ukraine, the failure to move 
forward with Minsk II, and we go through a lot of other issues.
    But, I want to go to Ukraine, itself. Many believe that the 
Maidan was all about people wanting an honest government and an 
opportunity to be able to have a chance in their country, more 
so than whether it was aligned with the East or West, quite 
frankly. We saw the Minister of Economy resign, I think 
yesterday or today. We know that they have a huge corruption 
issue. That is not new, but it is been a challenge for the 
government officials to break up the network that has existed 
in Ukraine for a long time.
    Can you tell us your prognosis and what the United States 
needs to do in order to make anticorruption a reality in the 
policies in Ukraine?
    Ms. Smith. I think there are a number of concerns about 
what is happening inside Kiev, inside Ukraine right now. And we 
are obviously watching and tracking developments there and 
their efforts to reform and address the corruption problem that 
you mentioned, Senator. But, I think we also have to appreciate 
how hard it has been for Poroshenko to simultaneously manage, 
literally, fighting going on inside Ukraine, driven by Russia, 
in large part, and simultaneously deliver on those campaign 
promises to reform the government, fight corruption, be more 
legitimate, answer to people's concerns. And I am worried that, 
if he does not deliver, then, in fact, we will see another 
round of this. I mean, the Ukrainian people do not hesitate to 
take to the streets when they are concerned about the future of 
their country.
    All that said, I think Poroshenko is a good and effective 
leader. He has challenges. He has relationships that are not 
working for him.
    Senator Cardin. But, as you point out, unless he deals with 
the internal issues, he cannot succeed.
    Ms. Smith. That is correct.
    Senator Cardin. So, what can the United States do, other 
than continuing to support Ukraine's independence, which we do, 
and we will continue to do that in every quarter, including 
sanctions--what can we do to give him a better chance to--
because I think he wants to implement these policies.
    Ms. Smith. He does.
    Senator Cardin. How do we give him a stronger hand 
internally in Ukraine?
    Ms. Smith. Well, the United States has provided a number of 
advisors to try and go in and help reform some of these 
ministries. And we will have to maintain that engagement at the 
highest levels. We are also going to have to provide resources. 
The United States has provided resources to Ukraine. So has 
our--so have our friends in Europe. It is not enough. They are 
going to need more. They are also going to need a lot of 
handholding at the highest levels. I mean, Vice President Biden 
has been over there repeatedly. He has been engaged. We are 
going to need high-level engagement from the State Department, 
from the White House, from every agency possible, to try and 
keep him on track. But, I think, without U.S. and European 
assistance, this simply will not happen.
    Mr. Wilson. If I could just add to that point, because I 
think this is critical, because this is where the battle for 
Ukraine is right now. We need to recognize--we call it a 
revolution, the Maidan Revolution, and yet the leaders --
President Poroshenko, Prime Minister Yatsenyuk--are creatures 
of the past. We need to see them as historically transitional 
leaders who will tip Ukraine more in the right direction, but 
we need to understand where they come from. This was not a 
revolutionary class that took over, in that sense.
    So, there are four--I would say five things we need to be 
drilling down on. The first is at the political level. You set 
the tone by the President, the Prime Minister, themselves. And 
we have got some problems there. I would have liked to have 
seen a President Poroshenko that divested of his media assets, 
put the bulk of his financial holdings in a blind trust, and 
repudiated his Ukrainian government salary to set the tone from 
the very beginning. It is not too late for him to take steps 
like that to really send the signal, because that tells people, 
``This is a new game in town.'' He has not done that.
    Second is the prosecutor general and the judiciary. We have 
seen, when you lock in the independence of the judiciary, as we 
saw in Romania, it can be powerful. If you look at what has 
happened in Romania over the past 2 or 3 years because of this, 
this is the battle that is playing out right now. The 
prosecutor general and how--to protect the independence of the 
judiciary, they do not have it right yet, and I think we are in 
pretty heated conversations with them.
    The third is the process. What we have seen from Estonia to 
Georgia is, the more that you can get rid of processes that 
create opportunities for corruption through electronic 
processes, through transparency--and that is stuff that can 
play out concurrent with what we are doing. We are seeing it 
experimented in Ukraine. You have got to embrace that 
wholesale, as we saw Georgia and Estonia do.
    And the last two, as Julie said, civil society in Ukraine 
is the story. I mean, it is an incredible story. There is an 
agency in that country that is quite valuable, and we need to 
stay aligned with, committed with the nongovernmental 
organizations that, at the end of the day, serve as an 
incredible check on any President or Prime Minister or 
Government of Ukraine, and will continue to do so.
    And the final is the linkage of our own assistance. As we 
grow our assistance and hopefully coordinate it better with the 
European Union, there is a way to link some of this 
specifically to some of the benchmarks on the corruption 
threshold.
    Senator Cardin. I thank the--good suggestions. Thank you.
    The Chairman. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you both very much for being here and for all of 
the work that you have done on the topic of U.S.-EU relations.
    I had the opportunity to speak with some Ambassadors from 
former--eastern Europe and former Soviet Republics last week. 
And they said very much what both of you have said, that we 
need to do more to support EU during these challenging times, 
and to be very clear about how we stand with respect to Russia, 
and not send any mixed signals.
    So, I want to explore a little bit more some of the 
suggestions that you all have made, but first I want to go to 
what I think is one of the challenges right now that Congress 
needs to address, and that is our failure to confirm nominees 
to the State Department who are going to put in place policies 
that do the kinds of things that you all have talked about. And 
I know our Chairman is very much on board with trying to 
confirm these nominees. But, let me just lay some of them out.
    So, you talked about, I think--Mr. Wilson, you talked about 
the importance of our Scandinavian partners and shoring them up 
as we think about NATO. What kind of message does it send to 
Sweden that 265 days after the Ambassador was nominated--or 398 
days, actually, after the Ambassador was nominated, so over a 
year, we still have not taken up confirmation of the Ambassador 
to Sweden?
    Norway, 265 days since Samuel Heins was nominated to be 
Ambassador to Norway. We still have not taken that up--that 
confirmation up.
    And in 2014, Norway scrambled its F-16 fighters 74 times to 
intercept Russian warplanes.
    I--I mean, when we talk about, ``How do we support our 
partners in this effort?''--making sure that the people are in 
place who can help lead that fight is absolutely critical. You 
know, the fact that we have got Ambassador Shannon, who is been 
nominated to one of the most senior positions at the State 
Department as Under Secretary for Political Affairs who would 
be responsible for coordinating the G7 to combat Russian 
aggression, is still waiting to be confirmed. Adam Szubin at 
the Treasury Department, we have not taken up his nomination, 
and we are looking at how we make sure that sanctions continue 
to bite on Russia.
    I--you know, obviously, I am preaching to the choir here, 
but I wonder if both of you could comment on what kind of 
messages that sends to our partners as we are trying to work 
together to fight Russian aggression, to shore up Europe. What 
does it say to them when we have got a Congress that refuses to 
confirm the people who are necessary for that fight?
    Mr. Wilson. Senator Shaheen, God bless you. I operate in 
the realm of policy, not politics. I have to defer to all of 
you for that. But, from a foreign policy standpoint, this is an 
enormous issue.
    Sitting in Washington, we often do not appreciate the power 
of the voice of the United States and Americans. Even when CNAS 
or the Atlantic Council shows up in one of these countries 
under duress, it is a major story. You know how it is when you 
show up on your CODELs. The absence of having a consistent 
American voice to be able to help shape the narrative, shape 
the debate, provide understanding, whether it is from managing 
all the crazy stories that come out about the United States, 
such as in intel-sharing--it is a real --we are in this battle 
with one armed tied behind our back. It is something that we 
hear almost every time we are in a country without an 
Ambassador, because it is certainly over-interpreted by the 
people of that country, in terms of a signal. And we are always 
saying, ``Please, this has nothing to do with that. Please do 
not read this as a signal about our commitment to the 
relationship.'' But, that does not carry a lot of water. So, I 
have to defer to the realm of politics, but it would be an 
astonishing and incredible development if we could empower the 
ability of American foreign policy by just putting players on 
the field.
    Senator Shaheen. Thank you.
    Ms. Smith.
    Ms. Smith. I would just second that. I mean, it sends a 
disastrous signal to our allies, that we do not care about 
their security, about the Russian probing that Sweden and 
Norway and many others are coping with, that Europe does not 
register on the list of foreign policy priorities, and that 
Europe simply will not be a priority. Ever since the 
administration announced that it was going to be rebalancing 
towards the Pacific, Europeans have been asking questions--you 
get them, we get them quite regularly--about, ``What does this 
mean about the value of the transatlantic relationship?'' And 
when we do not send an Ambassador for an extended period of 
time, over a year, it definitely is translated into a message, 
a very clear message, that Washington no longer cares about 
European security. And with the EU in the middle of this 
crisis, and Europe under such strain right now, it is 
absolutely critical that the United States move forward with 
these nominations as soon as possible--and confirmations.
    Senator Shaheen. Well, thank you. I could not agree more. 
And I think that is a message that we need to continue to talk 
about, because, as you said, fighting with one arm tied behind 
our back is not the way we want to position ourselves.
    I want to go back to some of the recommendations you laid 
out, Ms. Smith. And, Mr. Wilson, you also talked about some of 
these. You talked about energizing the EU-U.S. links and 
thinking about how we design and redesign our relationship. Can 
you talk a little bit more about how we do that? Because I 
agree, that is one of the critical things we need to do, think 
about every way in which we can support the EU. So, if you 
could talk a little bit more about that.
    Ms. Smith. Sure. I think, because the United States has 
been focused for quite some time on everything that has been 
happening in the Middle East and everything that has been 
happening in Asia, at times we have let Europe go a little bit. 
It is not that we do not have senior-level officials in our 
government focused on this relationship, but it does not always 
get the number-one or -two slot on our list of priorities, in 
terms of crises. And so, as a result, what we have allowed is 
some atrophy in the relationship. And the EU-U.S.--
    Senator Shaheen. I do not disagree with that. What I am 
interested in is, What can we do?
    Ms. Smith. So, for example, right now when the EU and the 
U.S. meets, you get the heads of state together at the highest 
levels, they sit down for a few hours. This is a heavily 
scripted event, where leaders read prepared statements. 
Everything has been negotiated in advance. And we do nothing to 
take advantage of the fact--
    Senator Shaheen. Sounds like the Senate.
    Ms. Smith.--we take--we do nothing to take advantage of the 
fact that we have some of the best and brightest minds all 
together in a room for few hours. We need freewheeling 
exchange. We need not prescripted statements. We need to ask 
hard questions. We could be running tabletop exercises with 
these groups, such as the one, actually, I am running today 
with CNAS. We could be looking at forecasting. We could be 
testing our assumptions.
    I mean, all of us assumed, Europe and the United States, 
that the migration crisis would stay in the neighborhood. We 
never sat down to ask ourselves, ``Gee, guys, let us think of 
the worst-case scenario. What if they start showing up on the 
shores of Europe?'' It does not mean we can predict the future, 
but I think we should be thinking about, as partners, how we 
can test some of our assumptions about what Russia is going to 
do next, or where we are going to end up in Syria, or what is 
going to happen in Libya. We need to utilize these--first of 
all, we have to hold these engagements more often. But, 
secondly, we have to use them far more strategically than we 
are using them right now. Putting everyone in the room to 
listen to a couple of prescripted speeches does nothing to 
energize this group and make--want people to show up. You know, 
I mean, essentially what you hear from participants on both 
sides of the Atlantic is, ``Oh, geez, know, I really do not 
want to sit there for 4 or 5 hours to listen to this.'' Let us 
make it worth heads of states' time, and ministers and 
assistant secretaries or whoever else is engaged, and think 
more innovatively about how we use these engagements.
    Senator Shaheen. Thank you.
    I am out of time, but can I get Mr. Wilson to respond to 
that?
    The Chairman. Sure.
    Mr. Wilson. I will do so briefly.
    That's an important question. There are two challenges. The 
European Union does not put its most influential leaders into 
its top jobs. It sends the signal to us that they want to 
retain that decisionmaking authority in capitals and not 
empower it. Imagine if Juncker were Merkel and Mogherini were 
Carl Bildt. It would be a different dynamic. So, one, this is a 
European choice.
    Second is the challenge of the institutional connection. It 
is awkward to work with the EU institutional.
    There is good connectivity. Our top diplomats are on the 
phone regularly. It is--it works. The Commission, which has a 
lot of authority, does work with our Cabinet on regulatory 
issues. And that works, more or less. The President, himself, 
focuses on key engagements, VTCs, videoconferences, with key 
leaders. What is broken is the U.S.-EU summits, institutional 
collaboration. And so, that is where there is a way to think 
about, How do you rejigger that? And, as Julie and some of our 
colleagues have thought about, What if we embedded TTIP in the 
idea of a broader agreement with Europe. We do not really have 
one; we have a Washington treaty for the alliance. We do not 
want a new EU treaty, but, what if you thought about a--some 
type of--new Atlantic charter that is a political sort of 
agreement that brings the European Union and the United States 
together and, within that, we embed something like TTIP so that 
we actually explain, we are doing it in a more strategic way.
    You are never going to have this perfect. It is always 
going to require savvy diplomacy on the part of the United 
States. And that is okay. We can work capitals and Brussels 
together. It would certainly help if they start empowering 
Brussels, but it looks like they may not move in that 
direction. And I think that is a reality we are just going to 
have to contend with in some respects.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Before I turn to Senator Kaine, I--on the 
Ambassador issue, I do--for those who do not pay attention to 
this on a daily basis--both Norway and Sweden and Shannon, 
actually, all three of them, have passed out of committee and 
are on the floor. And what sometimes people do not realize is, 
one Senator can hold a nomination. So--and without that hold 
being lifted, you end up having to go through a series of 
motions on the floor that take up a lot of time. I just want to 
make sure that people understand it is not, quote, 
``necessarily Congress.'' It is, in many cases, one or two 
individuals. And having received the multiple phone calls from 
Amy Klobuchar every Saturday, relative to both Sweden and 
Norway, and contorted myself on the floor to try to get these 
through, I just want to make sure everybody knows--I do not 
think anybody is putting more effort out to try to make that 
happen.
    And in the case of Shannon, I think maybe--there may be 
multiple situations. It might even be bipartisan. I am not 
sure. But, I know there are some holes there.
    But, again, I just did want to explain, not in any way to 
defend Congress. I would never want to do that. But, just to 
say that this is a situation where time ends up getting burned 
on the floor. A Senator over a issue can, in fact, with their 
rights, hold these. And I, too, would like for them to be 
confirmed.
    Szubin has not yet come out of the Banking Committee. That 
is a separate committee. He is serving in the capacity that he 
would be confirmed to in a more permanent way. And certainly, I 
have very warm feeling towards his mission, too.
    But, I just want to make sure we explain.
    Senator Cardin. Yeah, Mr. Chairman, I just want to just 
underscore everything you said. You have been very attentive, 
in this committee, to getting the information to all the 
members of this committee so that we can make the 
recommendations to the floor. You have done that in a timely 
way, and you have been able to deal with all the members of 
this committee so that we have been able to schedule timely 
business meetings to move nominations. And I thank you very 
much. Not from a party point of view, but from an institutional 
point of view, I think that is been the right step. And you are 
absolutely correct that an individual member can block the 
normal considerations of a nomination on the floor, and that is 
when we schedule it for a vote and debate and vote on it, or we 
can do it by consent.
    Two problems have existed. One, we have individual members 
who will not release this. And you have worked with these 
individual members, in some cases, and have been successful. 
And I thank you for that. It is not easy to deal with some of 
the members that you have been dealing with, and I give you 
high marks on that.
    But, there is another way. And that is, the Leader can 
bring forward a cloture motion. These are important positions. 
And the Leader has chosen not to use the floor time for a 
cloture motion. And I understand the competition for floor 
time. Do not get me wrong.
    The Chairman. Yeah.
    Senator Cardin. But, I must tell you, we have been having 
long weekends that we could have used for nominations. We have 
work periods that we could be using for nominations. These are 
important positions. And I can tell you, as one member--now, I 
am--admit I am not far from the Capitol, where I live, but it 
seems to me it has been successful in the past that just the 
threat of having a cloture motion on a person who is going to 
pass overwhelmingly, like a Tom Shannon, will release--or 
quicken the objection of the individual member or members who 
are holding up those nominations, because clearly there are 60 
members of the Senate that are going to vote for his 
confirmation.
    So--and I have expressed this to the Majority Leader, and I 
am disappointed that he has not used the power of the schedule 
to bring forward cloture votes so that we can move these.
    In a matter of transparency, I will be going to the floor, 
I hope as early as today, with some unanimous consent requests 
so that the individuals who are objecting at least are going to 
have to come to the floor and identify themselves as those who 
are objecting to moving these forward.
    But, I do want to underscore the point that you made. And 
that is--you have been incredible in the--your leadership of 
this committee, in the best traditions of the United States 
Senate Foreign Relations Committee, and I thank you for that.
    But, I just do want to underscore--it is so difficult for 
us to deal with critical foreign policy issues--not just major 
national security issues, but just--dealing with businesspeople 
needs in countries, dealing with trafficking of individuals, 
dealing with drugs, dealing with economic opportunities, as 
well as huge national security issues, when you do not have a 
confirmed representative in the country or a confirmed person 
in the Cabinet that is responsible for those positions. And we 
cannot be silent about it. This committee has primary 
jurisdiction in this area, so we cannot be silent about it.
    So, I am as frustrated as you are, and you have put more 
time into it than I have, because of dealing with the 
individual members on your side of the aisle that have raised 
individual objections. I have spent a lot of time dealing with 
our leadership, trying to get accommodations to the Majority 
Leader so that we can move as many as possible. But, we have 
got to find a path forward. It is just the beginning of 
February. If we are going to be tying these up because we are 
going to get to a November election soon, this is ridiculous. 
We have got to move these nominations.
    But, I thank you very much for your leadership.
    The Chairman. I thank you. I appreciate people continuing 
to raise the point, and could not agree more that having people 
on a daily basis having--you know, run a company that, you 
know, operate around our Nation, I--it is very difficult to be 
doing things in Wyoming if you do not have someone there on the 
ground, and it is very difficult for us to leverage our foreign 
policy efforts without having someone there. So, I appreciate 
the comments. I just wanted to explain that it is not 
necessarily Congress, it is, you know, particular individuals, 
in most cases. And if you want to say--
    Senator Shaheen. No, I just wanted to thank you for that 
explanation. And clearly I did not intend those comments to be 
aimed at you or this committee, which I think has done a great 
job in trying to move people through.
    I would disagree on one point, though. And that is, I think 
it is the Congress, because I think we have failed to address 
the rules that allow one person to hold up nominees 
indefinitely. And I think that needs to change.
    But, thank you very much for addressing the issue.
    The Chairman. Thank you.
    Senator Kaine, I am--thank you for being so patient with a 
delayed discussion.
    Senator Kaine. Well, and I echo my colleague's comments, 
Senator, as both--Chair, but also as Ranking, before you were 
Chair. You have been very good in getting this committee to do 
what needs to be done. And the only thing that I find ironic 
is, the--there is a high correlation between individuals 
placing holds who then also are out, blasting the 
administration for not showing leadership in the world. And 
they are the ones that are blocking us putting people in place. 
That is--there is not a complete 100-percent correlation, but 
it is usually the case that there is a near 100-percent 
correlation. But, be that as it may.
    I want to ask a question about Turkey. Eight of us, the 
first week in January, were in Vienna, Jerusalem, Ramallah, and 
Turkey. And I am not a Turkey expert, and I kind of want you to 
educate me. My perception of Turkey over the last--well, really 
during the Erdogan leadership of the country--is that there was 
an initial desire, really, to move toward Europe that was, 
frankly, rebuffed by Europe. And then there was a decision, 
``Well, okay, if you are not going to let me get closer to you, 
I will turn my energies to the east and draw closer with the 
Arab world and nations to the east.'' As Turkey is now dealing 
with this massive refugee issue, Europe is now, you know, 
really liking Turkey and promising financial assistance to 
Turkey to take care of the 2-plus million that they are taking 
care of. But, they would like them to actually keep more 
refugees in Turkey, rather than having them come to Europe. So, 
there is financial assistance, and there--have even put back on 
the table, ``Hey, these EU accession discussions have been 
stalled for a while. Maybe we can, you know, open those 
discussions again.''
    Talk a little bit about--Is that a meaningful prospect? 
Would Turkey even be interested in it at this point? You know, 
they--I think they were interested in joining a club that 
seemed really cool, you know, 15 years ago, and they may have 
more wariness about that now. But, Turkey has its challenges, 
too. I think a stronger Turkey-EU relationship could be very, 
very good. But, what are the prospects of that?
    Ms. Smith. I think on--in terms of how Turkey is looking at 
the European Union right now, they are certainly appreciative 
of the fact that the Europeans are willing to open some of 
these chapters, which should, you know, have to occur to--for 
them to walk towards formal membership. But, I think the Turks 
are skilled diplomats. They fully appreciate the obstacles. I 
think they understand this is a long-term process, that no one 
is going to turn a key overnight, that this never happens 
overnight, even though they have been at it for a while. I 
think they will seize on anything they can, but the reality is 
that they both now need each other a great deal to deal with 
this migration crisis. Turkey needs financial resources, first 
and foremost, above and beyond any membership question, to deal 
with the pressures that they are facing. And I think Europeans, 
equally, need Turkey to do everything it can to disrupt these 
smuggler routes, secure the border, and then work with them on 
some sort of process. The Germans and others are now looking at 
ways in which they could still agree to take some of these 
refugees, but have them initially return to Turkey to be vetted 
and process, and then Europe would--in theory, one model would 
be, they could put a cap. So, say, Germany says, ``We will 
still take 300,000, but we will start with the ones sitting in 
Turkey, not with the ones showing up on our doorstep.''
    So, they need to work all of this out, but it is an 
indispensable relationship, one that we should support. And 
again, as I noted in my opening remarks, this situation is 
about to get a heck of a lot worse. Russia and the Syrian 
regime have been aggressively going after Aleppo.
    Senator Kaine. Yeah.
    Ms. Smith. If Aleppo then falls into the hands--back into 
the hands of Assad, estimates are, we could see another 500,000 
refugees show up in Turkey, which would just be devastating, 
for many reasons. Also, even in Jordan, we are seeing instances 
where the Russians are now moving forward with bombing so far 
to the south, it is also spurring more refugee flow into 
Jordan. And so, there is just--this spring, it is going to be 
an enormous strain on both of these countries.
    And so, above and beyond membership, I think both Brussels 
and Ankara are focused on the migration crisis.
    Senator Kaine. Please, Mr. Wilson.
    Mr. Wilson. I would just add to this. This is one of the 
most complicated issues, in that--I mean, Turkey is in play 
right now, and it is surrounded by, just, compounding crises. 
And if you think from President Erdogan's perspective, as well 
as Prime Minister Davutoglu, they had some big ideas. Unlike 
some other--they had big ideas. First, it was moving quite 
dramatically with reforms that advanced their path with the EU. 
That hit a dramatic roadblock. Then they embraced the strategy 
of no problems with their neighbors, and really began this 
``charm offensive.'' Look at that today; it is in tatters. It 
is a disaster from Syria to Russia. And then he had a big 
strategy of outreach to his own Kurdish population to fix this 
perennial political issue, and now we have warfare in Turkey's 
southeast again. These were big ideas, and they are all in 
complete tatters.
    At the same time, we see this potential of driving Turkey 
away from our transatlantic community. This is going to be 
tough. It is going to be long term. Turkey is an ally. I think 
we have got to engage, particularly, Erdogan. We have got to 
cultivate, over the long term, the demands within Turkish 
society that actually want to be part of this community, 
because there is no--you know, in the short term, yes, you may 
open a few chapters for negotiation as part of this deal. There 
are some bigger ideas as part of the refugee deal to actually 
put on the table the prospect of visa-free travel for Turks to 
Europe, which would be dramatic and, over the long term, as 
part of helping to create societies that are going to demand 
the kind of change at home that will embed Turkey closer in the 
community--in the transatlantic community. I think we need to 
stay focused on those fundamental pieces. That is going to take 
quite a while.
    There will never be a Turkey in Europe until Europe comes 
to grip with a sense of national identity that begins to 
replace the basis of ethnicity and religion as their basis of 
identity. In fact, I do not--I am not sure they can even have a 
commitment to Europe until that happens. And it may never 
happen. It may be one of the things that evolves eventually out 
of this refugee migration flow, to have an identity attached to 
political entities and governance.
    So, we are in this for the long haul. It is going to be 
bumpy. There are some bad trend lines both in the country and 
in the region. But, I think it actually is an imperative for us 
to remain very engaged with Ankara.
    Senator Kaine. One positive trend line that I saw is, you 
know, if you can tell anything by how much time the leader of a 
foreign country wants to spend with you, Erdogan is not 
necessarily the one that wants to spend the most time talking 
to congressional delegations. But, when we visited, in early 
January--and I viewed this as sort of in the shadow of the 
challenge with Russia and the downing of the plane--we had a 2-
and-a-half-hour meeting that he was--he would have taken the 3 
and a half hours, except we had another meeting to go to. There 
seemed to be an intense realization, ``Wow. Being a NATO ally 
is an important thing. The U.S. relationship is very 
important.'' They talked a lot about a desire to eventually be 
concluded in the TTIP--included in the TTIP discussions. So, a 
whole series of things. There may be an opening for, you know, 
a deepening of the relationship in positive ways with Turkey, 
because they do perceive, now, a degree of an existential 
threat because of the renewal of this historic, you know, 
Russian-Turk or Russian-Ottoman animosity. And so, that is 
something that may give us an opportunity. But, thank you for 
your thoughts on that.
    Thank you, Mr. Chair.
    The Chairman. Yeah, I would just agree. You know, I was 
there not long ago, and far more time than I would have ever 
expected in a one-on-one kind of situation. And I do think your 
analysis is correct.
    So that we do not give Tom Shannon or the State Department 
additional heartburn, I did ask my staff to clarify. It is not 
bipartisan objection. I think it is in a similar state as the 
other folks that you mentioned. So, Tom, if you are listening, 
calm down.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    I am sorry I missed the excitement earlier, but thank you, 
to the witnesses, for being here, as well. And I am--I 
apologize if I am repeating a couple of the questions.
    If you look at the arc of foreign policy, starting in the 
Middle East, from Syria to Iran to China to North Korea, go 
around the globe now to what we see in eastern Europe, Ukraine, 
the challenges in Turkey, we face a very complex set, on 
multiple fronts, perhaps we have not seen in decades, if ever--
unlike we have seen in decades, if ever. And so, I spent some 
time, just a couple of weeks ago, in Europe, visiting with 
General Breedlove, visiting with General Hodges, was able to 
spend some time with Ambassador Lute, our Mission to NATO, and 
our EU Mission, as well. And one of the terms that kept coming 
up in every single one of these meetings was this issue of 
muscle memory, that, after looking to the Middle East for so 
long, we have lost the muscle memory in Europe that we need to 
fight a war in Europe, to resist Russia in Europe, to do what 
it takes to defend Europe. And so, as you look across our NATO 
allies, and as--and I do not know if you have seen this report; 
it just came out, so it is--I would not expect that you have 
seen it, but RAND came out with a report, just yesterday, I 
believe, and here is a quote from the RAND report. They did a 
series of war games, testing capabilities. Are you pretty 
familiar with it? Did you talk about this already today? Okay. 
No, but, I mean, the quote is this, ``The games' findings are 
unambiguous. As currently postured, NATO cannot successfully 
defend the territory of its most exposed members.'' And it goes 
into quite--some detail about what that means.
    So, I guess from a military muscle-memory standpoint, we 
know that it is a challenge now to move tanks from Germany to 
Estonia, because you have to--permits and everything else you 
have to go through. In times of war, I am sure that will 
change. But, what diplomatic muscle memory has the U.S. lost 
when it comes to security in Europe, diplomatic pressure on 
Russia and sort of the diplomatic measures that we have to 
regain in order to protect our NATO allies?
    Mr. Wilson?
    Mr. Wilson. Thank you, Senator. Yes, the term ``muscle 
memory'' has come up, because, you point out correctly, whether 
it is defense planning or these exercises, the microproblems 
they have encountered really underscore how far we have moved 
away from some of that. That is in train --and General 
Breedlove is actually doubling down, as you well know, on 
working through those. There are a couple of pieces, though, 
that I would point out.
    One is the most vulnerable, so the Baltic and the Black 
Seas are the two areas that are most vulnerable. You have heard 
the discussion about A2AD. And so, there is quite a bit of 
necessity to think about how we actually have presence and 
deterrence that is effective in the Baltic, and particularly in 
the Black Sea, because of something called the Montreux 
Convention which limits our military presence. Those are two 
particular areas of concern. I am actually even more concerned 
about the Black Sea area, because I think it is more vulnerable 
for Russian action.
    But, at the same time, we actually do not want to get into 
that game, ultimately. We want to avoid that game. And so, 
deterrence is--yes, it is about activities and exercises, 
capabilities, but it is also about the psychology of your 
adversary. And I think it is important that we move on these 
specific pieces of the capabilities, the pre-positioning, what 
we are doing in the Baltic/Black Sea. But, I think the way that 
we communicate that we are in for a long-term comprehensive 
strategy to check what Russia is doing to rewrite the rules, 
and embedding that in a coherent strategy that we communicate 
as such--we are doing pretty good things on sanctions, on 
energy, on all these various pieces--to integrate that with 
clarity in a way that makes clear to our adversary that there 
is a political and credible plan to back it up--and so, it 
actually means you might actually have to spend less money, do 
fewer exercises, because you have captured that psychology of 
deterrence--while combining that with the old diplomatic muscle 
movement of alliance management. And we have lost some of that 
muscle movement, as well. It takes time. I mean, look at the 
Cold War history of the alliance.
    Senator Gardner. What is the most alarming loss of muscle 
memory, do you think, from a diplomatic standpoint?
    Mr. Wilson. I think we have assumed that, because of the 
EU, because of where Europe has come, that the Europeans are 
able to lead on many of these issues today. If the Europeans 
are leading in a negotiation with Russia without the Americans 
by their side, it will be a bad negotiation. We will fail. And 
in the Cold War, we understood that American leadership at the 
table on many of these issues was fundamental to getting it 
right. The Europeans would often complain, but they would also 
be thankful. And I think, in some respects, we have to 
calibrate that. Europe is a different place. We have got to be 
savvy with our diplomacy. But, we cannot just exhort Europe to 
get it right. We are actually going to have to drive this 
forward on the whole set of equations. It requires time, it 
requires an understanding that we have got to bring more of 
these leaders into the Oval Office, we have got to engage with 
them more regularly, we have got to cultivate that so that we 
are taking our closest allies, who have never been coherent in 
any of the crises we faced in the Cold War, and we are rallying 
them behind clarity of vision and principle that is backed up 
by strategy. And sometimes when we do not lead with that, it 
feels like we have got scattered--lack of leadership or a 
scattered sense of reaction among our allies.
    Senator Gardner. So, how do you find that clarity, though, 
when you have got part of our NATO allies looking east, part of 
them looking south? And that almost seems like a hard line 
between the two that you cannot find the clarity that we need 
to. So, what steps do we take there?
    Mr. Wilson. So, this is where I think the alliance is 
struggling right now. It is trying to protect its own with 
Article 5, to strengthen the alliance. But, it has no idea what 
to do about the fires on its periphery. You cannot be secure if 
your neighbors are on fire. So, I think we actually have to 
take it head-on. What is the role that we can play with our 
European allies and thinking about how we project stability in 
the east and the south. It is not easy. But, for example, 
within the alliance, a major defense capacity-building 
initiative that was focused on--not the 55 partners we have for 
the alliance, but who are the key few strategic partners where 
we really need to see their capacity enhanced because it 
affects our security? And you could identify Ukraine, Tunisia, 
if we get to that point, Libya--and the context of one major 
NATO initiative at Warsaw on defense capacity-building that 
unifies our southern and eastern strategies. That is where 
there has been a little bit of hesitancy, I think, within the 
alliance. And it is going to take something like that to help 
bridge that gap between east and south.
    Senator Gardner. And, Ms. Smith, I do not want to deny that 
opportunity to you to speak on this same issue, but I wanted to 
ask one more question, too, and I am running out of time. What 
happens, what is the fallout if sanctions are not renewed in 
midsummer? Sanctions on Russia by the European Union.
    Ms. Smith. It is bad news, because what it does is, it 
sends a message to Moscow that the transatlantic community is 
no longer united. And that is exactly what Moscow has been 
hoping for all along. Moscow is actively doing everything it 
can to divide Europe from within, and it is actively trying to 
divide Europe from the United States. So, if we hit the summer 
right around the Warsaw NATO Summit, and we have to 
simultaneously announce that Europe and the United States can 
no longer move forward and join hands on this sanctions policy, 
it sends all the wrong signals to Moscow. We have to find a way 
to stand united, even as Europe faces all of these crises.
    And on your other point about Europe--in general, I would 
say two things: For years and years and years, we were able to 
focus on Europe, that neighborhood and the Soviet Union, all 
through the Cold War. Once the wall fell, it was very much 
about what Europe and the United States would do somewhere 
else. And now, on the diplomatic front and military front, we 
have to say to ourselves, wait, hold up, it is not about what 
Europe and the United States are going to do in Syria. It is, 
in part. But, guess what? It is also about returning to that 
transatlantic agenda. The problem is, when we return to that 
transatlantic agenda, the generation of people that have those 
transatlantic instincts, that have personal relationships, that 
speak European languages, that speak English on the other side, 
have all, in many ways, fallen away. I mean, for us as a 
country, the foreign policy community that is coming up through 
the ranks now is very much trained to focus on China. They 
speak Mandarin, they speak Arabic, they speak Farsi. I do not 
get as many people coming through, saying, ``I want to be you, 
someone who is focused on Europe.'' Now I get a few more of 
those folks. But, by and large, we have had a generational 
shift that we feel on both sides of the Atlantic. I cannot find 
as many members of the German Bundestag or in the French 
Parliament that have those transatlantic instincts. And, 
frankly, we have seen changes in our own Congress, as well.
    And so, we have to reinvest in these relationships, find 
the transatlantic experts, and spend the time focusing on a 
neighborhood that, frankly, we thought was kind of solved, in 
many ways, in terms of international security crises. And so, 
we have been put on notice by Moscow that this neighborhood is, 
by no means, solved. And we have to ensure that, as Russia 
tries to divide us, we stay united.
    Senator Gardner. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Very good. Does anyone--
    I will say that I think there has been tremendous interest 
in this hearing. And you all have been outstanding witnesses. 
And not only do I appreciate the information that was put 
forth, but also the passion with which it was done. And you all 
have just been extraordinary. So, thank you.
    If you would not mind, we would like to leave the record 
open through the close of business Friday, and would love to 
have quick--fairly quick responses, which will be a part of the 
record, if that is okay.
    And, without further ado, we thank you, we thank the 
committee members. And the meeting is adjourned.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record

            Responses to Additional Questions Submitted to 
              Mr. Wilson and Ms. Smith by Senator Shaheen

Western Balkan Development
    Question 1. Ms. Smith, Mr. Wilson, it has now been 20 years since 
the Dayton Accords ending the Bosnian War were successfully negotiated 
and signed at Wright-Patterson Air Force Base in Ohio. Do you believe 
that Europe is sufficiently engaged in developing western Balkan 
countries, like Bosnia and Herzegovina, so that they may eventually 
attain EU membership?

    Answer. European integration for Bosnia and Herzegovina has come at 
a slow pace due to both delayed reforms and ethnic divisions that have 
persisted since the early 1990s. But thanks to a German and British 
initiative launched in 2015, Bosnia has started to make real progress, 
securing an official nod from the EU that it can now officially apply 
for EU membership. Bosnia will do so on February 15th of this year. 
Years of tough negotiations and much-needed reforms will follow. 
Official membership will very likely happen years from now. Until then, 
Europe and the United States should spend more time focused on this 
corner of Europe, particularly in light of the ongoing migration 
crisis, which is putting extraordinary pressure on the countries that 
make up the Balkans. In particular, these countries need help with 
border monitoring and immigration services.


    Question 2. Ms. Smith, Mr. Wilson, I am concerned that the 
significant achievement of ending the Bosnian War and the opportunity 
it presented for Bosnia and Herzegovina is in danger of being lost due 
to economic stagnation there. One proposal I have put forward is 
legislation to authorize a USAID enterprise fund for Bosnia and 
Herzegovina to encourage growth of small and medium-sized enterprises. 
Do you believe there is more that the U.S. should do to support Bosnia 
and Herzegovina as it seeks to develop its economy and improve 
employment opportunities for its citizens?

    Answer. American leadership in the Balkans, especially in Kosovo, 
Bosnia and Herzegovina has helped the region recover from the economic 
and political trauma of the 1990s. But these countries continue to need 
U.S. support both in terms of economic recovery and good governance. 
The United States should do more to provide assistance to small and 
medium sized enterprises, support civil society and strengthen 
political institutions that can solidify Bosnia and Herzegovina's 
democratic trajectory.


                               __________





                                  [all]


</pre></body></html>
